<html>
<title> - COUNTERING A RESURGENT RUSSIA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     COUNTERING A RESURGENT RUSSIA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 1, 2019

                               __________

                           Serial No. 116-31

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIHC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-135PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>                              
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
                   
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director                  
                   
  
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Nuland, Ambassador Victoria, Nonresident Senior Fellow, Foreign 
  Policy, Center on the United States and Europe, Brookings 
  Institution, and Former Assistant Secretary of State for 
  European and Eurasian Affairs and Former United States 
  Permanent Representative to NATO...............................     8
Fried, Ambassador Daniel, Distinguished Fellow, Future Europe 
  Initiative and Eurasia Center, Atlantic Council, and Former 
  Assistant Secretary of State for European and Eurasian Affairs 
  and Former United States Ambassador to Poland..................    15
Keane, General Jack, U.S. Army, Retired, Chairman, Institute for 
  the Study of War, and Former Acting Chief of Staff and Vice 
  Chief of Staff of The U.S. Army................................    30

                  INFORMATION SUBMITTED FOR THE RECORD

Unclassified Report submitted for the record from Representative 
  Bera...........................................................    63

                                APPENDIX

Hearing Notice...................................................    95
Hearing Minutes..................................................    96
Hearing Attendance...............................................    97

  ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD FROM COMMITTEE MEMBERS

Statement for the record from Representative Connolly............    98

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted from Representative Deutch......   100
Responses to questions submitted from Representative Pence.......   101

 
                     COUNTERING A RESURGENT RUSSIA

                         Wednesday, May 1, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 10:11 a.m., in 
Room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    Today we will hear from some of our best foreign policy 
minds on one of our most pressing foreign policy challenges, 
how to deal with an increasingly aggressive and belligerent 
Russia.
    Ambassador Nuland, Ambassador Fried, General Keane, 
welcome. Welcome to members of the public and press as well.
    If you look at a map of the world, you will not find too 
many places that Russia is not stirring up trouble. On its own 
borders, Russia's illegal occupation of Georgia and Ukraine has 
shattered decades of work to build peace and stability in 
Europe. Propaganda efforts and cyber warfare across the 
continent have spread lies and confusion with the clear aim of 
undermining Western unity and the Transatlantic Alliance.
    Russia has weaponized its energy resources, expanding into 
European markets and creating greater and greater dependency, 
particularly with projects such as the Nord Stream 2 and 
TurkStream. These are clear efforts to increase its influence 
into European countries and advance its political aims.
    In the Middle East, Russia has served as a lifeline for the 
murderous regime of Bashar al-Assad, aiding in the wholesale 
slaughter of innocent civilians. Russia has exported these same 
so-called counterterrorism tactics to Sub-Saharan Africa, 
where, for example, in the Central African Republic civilian 
casualties are mounting.
    As we watch events unfold here in our own neighborhood, we 
are reminded that Putin has sent troops to Venezuela to prop up 
the illegitimate dictator Nicolas Maduro. Here in the United 
States, of course, Russia put its thumb on the scale during the 
2016 election to support President Trump's campaign, as Special 
Counsel Mueller's report puts it, and I quote, ``in sweeping 
and systematic fashion''. Unquote. And Russia continues to work 
to fuel political division and undermine American democracy.
    And the largest group victimized by Russia's harmful and 
destructive policies are Russians themselves living under the 
tyranny of Vladimir Putin. Putin tries to silence his political 
opponents, honest journalists, and anyone else who dares to 
criticize his corrupt rule. His tools range from imprisonment 
to torture, to assassination, as the world saw in the case of 
Boris Nemtsov, whom I had the pleasure of meeting with right in 
this very building before he was brutally assassinated by 
Putin's people.
    Putin and his thugs continue to tighten their grip on 
freedom of speech, expression, and access to information and 
economic opportunity. And let me add on that note that Russia 
continues to hold Paul Whelan, an American citizen, under false 
charges of espionage. Russia is denying him his basic human 
rights and has been dragging its feet every step of the way. I 
renew my demand that the Russian government end this charade 
and release Paul Whelan back to his family.
    What is Russia's aim with this unrelenting malevolence? 
What does Putin hope to accomplish by seizing territory, 
distorting reality, attacking democracy, and supporting 
tyranny? First, of course, the answer is power, both 
domestically and on the international stage. Putin and his 
henchmen in the Kremlin are desperate to keep their grip on 
power, whatever the costs. They need to hide the disaster that 
their oligarchy, kleptocracy, and corruption have been for 
their own country. Putin simply blames outside forces for 
Russia's troubles, but we all know the troubles of the Russian 
people are the result of Russia's corrupt leaders.
    Second, Russia wants to peddle the lie that there is a 
better alternative to democracy, a better alternative to the 
West. Putin wants a new cold war, a new battle of ideas. He 
thinks he can win by supporting dictators and cozying up to the 
West's adversaries, including his recent attempts to reach out 
to China. He is wrong, of course, but that will not stop him 
from trying.
    It is a challenge we need to take seriously, and I do not 
think that the Administration is doing nearly enough. We are 
being outplayed around the world and here on our home court. We 
are ceding ground in Syria and across the Middle East. We are 
letting Russia work its will in the European energy sector. 
And, of course, with another Presidential race gearing up, we 
have not done nearly enough to shore up our own elections from 
Russian interference.
    The White House says no President has ever been tougher on 
Russia. I wish I could believe that. I have got to wonder why 
the Administration will not meet the challenge head-on. The 
Special Counsel said in his report that he could not establish 
criminal conspiracy between the Trump campaign and Russia, but 
let's be clear. We know the Russians offered the Trump campaign 
stolen information about Hillary Clinton. We know the Trump 
campaign was eager to receive it. We know there was contact 
after contact after contact between campaign officials and 
Russian officials, and we know that the President was working 
to expand his business interests in Russia right up to the 
election. The fact that such behavior is not illegal should be 
a call for Congress to act.
    And the fact is we still do not know how deeply the 
President is involved with Putin. We have no idea what the 
President and Putin discussed at their meetings. We have no 
idea, and that underscores why this committee's oversight and 
investigative work will proceed full speed ahead and why we 
will continue to shine a light on the real challenge that 
Russia poses.
    In fact, the Ranking Member and I are working on 
legislation to push back on Russian aggression, protect 
American interests, ramp up the targeted sanctions, enhance 
diplomacy, and counter propaganda efforts to meet the Russian 
threat.
    And I am eager to hear our witnesses' thoughts on what we 
should be doing to counter Russia, both in the near and long 
term. I do not think there is any disagreement about that in 
this committee with the members of this committee and our 
witnesses.
    Before I introduce them, I will yield to our ranking 
member, Mr. McCaul of Texas, for any opening remarks he might 
have.
    Mr. McCaul. Thank you, Mr. Chairman.
    As General Keane said, if a politician loses his voice, it 
is like losing a weapon. So, I have sort of lost a little bit 
of my voice, but I am going to try to get through this very 
briefly.
    Russia has been a threat for a long time. That is why NATO 
was formed. Russia did interfere with our elections. I was part 
of the 2016 Gang of Eight briefing on their attempt to meddle 
in our elections. And I have always stood firmly against that.
    I asked the prior administration to stand up against that 
publicly and condemn it. And I think we should still condemn 
it. I did a lot as chairman of Homeland Security to enhance our 
cybersecurity apparatus to protect Americans and the American 
electoral system, and I am proud of that work.
    I do not think this is a partisan issue. As you and I had 
breakfast with the secretary of State today, it is no question, 
no doubt in my mind, that Secretary Pompeo looks at Russia as a 
great threat to the United States.
    And one only need look at Ukraine and what they have done 
in Ukraine and in Crimea, and they have been bold in their 
aggression. And now, looking today at Venezuela, the fact that 
Russians are in our own hemisphere posing a threat, putting 
military assets in our Western Hemisphere, the likes of which 
we have not seen since the Cuban Missile Crisis. The fact that 
President Maduro was on an airplane just yesterday to fly to 
Havana and the Russians talked him out of it--what is going on 
in our hemisphere? They would love nothing more than to poke us 
in the eye in our own hemisphere.
    They moved into Syria. They took over the ports in Syria. 
They saw a power grab because we did nothing. We did nothing in 
Syria, and inaction is a decision in and of itself, and the 
Russians exploited that. Mr. Chairman, as the Foreign Minister 
of Turkey told us, that is precisely why the Russians are 
there, because we were not. We have to be a world leader. We 
cannot lead from behind anymore. We have to be a leader. 
Otherwise, the Russians, and the Chinese for that matter, will 
fill that vacuum. So, I commend you for having this hearing.
    There was no collusion in this last election, but did they 
try to meddle in the elections? Absolutely. And the 
intelligence shows that. The intelligence community shows that. 
There is no doubt in my mind they are not our friend. And if 
anybody thinks Putin is our friend, they are wrong.
    I met with two Russian opposition leaders yesterday, and 
they view Putin as a threat to the world. In my view, once KGB, 
always KGB.
    So, I think this should not be a partisan exercise here. 
This should be an American exercise. As you mentioned, Mr. 
Chairman, I look forward to working with you on issues related 
to this matter, and I hope we can pass legislation out of this 
committee. Because I think I speak for most of my members on my 
side of the aisle that we do not view Russia as our friend. We 
are not complicit with Russia. Russia has been a cold war 
enemy, has been an enemy of NATO, and they are an enemy of the 
United States today.
    And with that, I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. McCaul.
    I am now pleased to introduce our witnesses. I will start 
with Ambassador Victoria Nuland, who served as Assistant 
secretary of State for European and Eurasian Affairs from 
September 2013 until January 2017 under President Obama and 
Secretary Kerry. She was the State Department spokesperson 
during Secretary Hillary Clinton's tenure, and U.S. Ambassador 
to NATO during President George W. Bush's second term from 2005 
until 2008. Ambassador Nuland previously served as Special 
Envoy and Chief Negotiator on the Treaty on Conventional Arms 
Control in Europe, as Deputy National Security Advisor to Vice 
President Cheney, and in numerous overseas posts. She is now 
senior counselor at the Albright Stonebridge Group and holds 
positions at the Brookings Institution, Yale, and the National 
Endowment for Democracy. And she is also a personal friend of 
mine, and I am always amazed at how smart she is and how hard-
working and how much she knows.
    So, welcome, Ambassador.
    Ambassador Daniel Fried was a member of the Foreign Service 
for four decades, serving as Ambassador to Poland, as Assistant 
secretary of State for Europe during the era of the NATO 
enlargement, and as National Security Council Senior Director 
during the Clinton and George W. Bush Administrations. He 
worked to craft the West's response to Moscow's aggression 
against Ukraine, starting in 2014, as the State Department's 
Coordinator for Sanctions Policy. He is currently a 
Distinguished Fellow with the Atlantic Council and a visiting 
professor at Warsaw University, a hard worker, very competent. 
And we are very delighted that you are here, Ambassador.
    General Jack Keane served in the United States Army for 37 
years, culminating with his appointment as Acting Chief of 
Staff and Vice Chief of Staff of the Army. He was a career 
infantry paratrooper, a decorated combat veteran of Vietnam, 
and commander of the 101st Airborne Division and the 18th 
Airborne Corps. After his 2003 retirement from the Army, 
General Keane spent a decade assisting senior defense officials 
in Iraq and Afghanistan. He is president of GSI Consulting and 
chairs the Institute for the Study of War and the Knollwood 
Foundation.
    And as I said, a very distinguished panel, very 
distinguished general. Welcome again to all of you. We are 
grateful for your time.
    I will now recognize our witnesses for 5 minutes each to 
summarize their testimony, and we will start with Ambassador 
Nuland.

  STATEMENT OF AMBASSADOR VICTORIA NULAND, NONRESIDENT SENIOR 
FELLOW, FOREIGN POLICY, CENTER ON THE UNITED STATES AND EUROPE, 
BROOKINGS INSTITUTION, AND FORMER ASSISTANT SECRETARY OF STATE 
  FOR EUROPEAN AND EURASIAN AFFAIRS AND FORMER UNITED STATES 
                PERMANENT REPRESENTATIVE TO NATO

    Ms. Nuland. Thank you, Chairman Engel, Ranking Member 
McCaul, members of this committee, for the opportunity to 
appear before you today.
    I commend this committee for the bipartisanship that it has 
shown on Russian-related legislation in recent years and for 
its continued commitment to that, as the ranking member made 
clear this morning.
    The first President for whom I served, Ronald Reagan, set 
the gold standard for policy leadership vis-a-vis the Kremlin. 
He understood that we in the United States had a dual mission, 
to contain, deter, and defeat dangerous and destabilizing 
behavior by the Kremlin, but also to offer Moscow a better, 
more collaborative relationship, if it were willing to change 
course.
    Today, I believe our greatest challenge in countering a 
resurgent Russia is the lack of leadership, unity, and 
consistency in the United States in managing relations with 
Moscow. This, in turn, leaves our allies and partners adrift in 
confronting the many challenges from the Kremlin to our 
security, our democracy, and the liberal rules-based order. It 
also leaves Moscow unsure what we value and even more tempted 
to test the limits of U.S. and allied will to defend ourselves.
    Reagan in his day did not view Moscow as a permanent enemy, 
and nor should we today. The American people do not want that, 
and I do not believe the Russian people want it, either. What 
we do not know, and what we have to continue to test, is 
whether Russian President Putin truly wants to improve 
relations. It may well be that his psychology and his 
leadership model are too dependent on an enemy abroad to change 
course. And we also have to steel ourselves for what may be a 
very long game that outlasts Putin.
    In the meantime, as the chairman and ranking member have 
made clear, none of us should have any illusions about the 
current challenge. Just a few highlights from the Kremlin's 
current playbook to set the table:
    Our democracy and those of our allies have been infected 
and undermined by Moscow's digital aggression.
    Russia's neighbors have been intimidated, invaded, and in 
the case of Crimea/Ukraine, annexed.
    Arms control agreements that kept the peace for decades 
have been violated.
    Thugs and dictators, from Assad in Syria to Maduro in 
Venezuela, survive and thrive, thanks to Kremlin support.
    Moscow exports corruption and resorts to money-laundering, 
criminality as tools of coercion.
    And the human and civil rights of Russia's own citizens 
have been trampled, and the innovation and talent of the 
country have been stifled.
    Today, Putin believes that the West is weak, that our 
political and economic systems are vulnerable, and that the 
values of tolerance, inclusion, and universal rights that we 
protect when we are at our best can be exploited to divide us. 
He aspires to lead a global club of autocrats who offer their 
citizens and the world an ideological and political alternative 
to the messiness and wonderfulness of free, open societies.
    We enable Putin's quest ourselves when our own leaders call 
into question the basic rights enshrined in our liberal 
Constitution: an independent judiciary, a free press, 
protection of minority rights, and the oversight powers of this 
Congress.
    So, I agree with the premise of the Trump administration's 
national security strategy, that we have reentered a period of 
competition of Russia. What I do not see, though, is a 
coherent, full government response to that challenge which is 
led by the President, in partnership with the Congress. To be 
effective, that strategy has to harness all the tools of our 
national power and those of our allies, military, political, 
economic, informational, and now, of course, digital.
    We have to harden our own defenses. We have to better 
expose and blunt Russian malign activity. And we have to 
increase the cost for Moscow, while also offering a path to de-
escalation and even collaboration, if the Kremlin changes 
course. And we have to coordinate all of this tightly with 
NATO, with the EU, with our Asian allies and partners, in order 
to amplify the impact of our actions, but also to close 
opportunities for Moscow to divide us.
    We have to, once again, remember how to marshal a big stick 
and a big carrot. And we should not forget to speak directly to 
the Russian people, who are now very tired of their 
government's focus on Ukraine and Syria and new weapons, to the 
detriment of improved schools, hospitals, and jobs in Russia 
itself, and the corruption that is rotting that country.
    Let me just give two examples of how a larger strategy 
might work. To address Russia's digital assault on our 
democracy, here is what we need to do: we need to appoint a 
cyber czar in the White House to coordinate national and 
international policy. We need a national intelligence and 
operational fusion center, as has been called for in some 
legislation, to expose, defeat, and deter digital influence 
campaigns, electoral manipulation, and inauthentic speech, 
working closely with industry and with academia.
    We need an agreed escalation letter of painful new economic 
sanctions, legal and regulatory penalties, coordinated with 
allies, ready to deploy when new malign influence is exposed. 
We cannot wait until after the action has happened to start 
figuring out what the cost will be.
    And we need our own suite of reciprocal legal and, when 
necessary, deniable digital and cyber countermeasures which 
increase the cost to Putin vis-a-vis his own electorate and 
demonstrate his deficiencies at home.
    And for the carrot, we need a serious and standing 
sustained dialog with Moscow which offers an armistice on these 
issues and sanctions relief, and the prospect even of 
potentially collaborating to set global digital standards, if 
and when the Kremlin verifiably renounces weaponization of the 
internet.
    Similarly in the military sphere, where Russia's increasing 
reliance on nuclear weapons and investments in hypersonic, 
undersea, and cyber weapons present new threats:
    We should respond to Russian violations of the INF Treaty 
and its weapons buildup with new conventional deployments and 
missile defenses of our own in Europe, coordinated with our 
NATO allies, to deter nuclear first use and conventional 
adventurism, and to push the Russians back to the negotiating 
table.
    We need to maintain and strengthen NATO and U.S. defenses 
and exercises along the Alliance's eastern edge and in the 
Baltic and Black Seas.
    And we need to appoint a senior negotiator and interagency 
team for comprehensive talks with Moscow on strategic 
stability, which tie any future arms control agreements and the 
extension of New START to a broader de-escalation of tensions 
and insecurity across all the military domains of power.
    And finally, we need to speak directly to the Russian 
people about the costs of Putin's militarization. They need to 
know where the wealth of their country has gone.
    These are just two areas of challenge with Russia. A 
comprehensive policy will require rigorous lines of effort also 
on Ukraine, on Syria, on corruption, and on all the other areas 
of concern. This level of effort will require principled, 
steady Presidential leadership to unite our government, 
coordinate closely with all of you in the Congress, and to 
build the support of the American people and our allies.
    As our intelligence community and now the Mueller report 
make absolutely clear, Putin seeks to pit Americans against 
each other to destroy our democratic system, to erode our trust 
in each other, and to damage our alliances. This is not about 
any one of us, nor is it about the President's legitimacy. It 
is about the safety and security of all of us and the future of 
the liberal world order that has served the United States so 
well for 70 years. Preserving these must be the first 
responsibility of any American President and of every Congress. 
We have the national strength and the allies to meet this 
challenge of a more dangerous Russia. What we have lacked is 
the resolve.
    Thank you.
    [The prepared statement of Ms. Nuland follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ambassador Nuland.
    Ambassador Fried.

  STATEMENT OF AMBASSADOR DANIEL FRIED, DISTINGUISHED FELLOW, 
FUTURE EUROPE INITIATIVE AND EURASIA CENTER, ATLANTIC COUNCIL, 
   AND FORMER ASSISTANT SECRETARY OF STATE FOR EUROPEAN AND 
 EURASIAN AFFAIRS AND FORMER UNITED STATES AMBASSADOR TO POLAND

    Mr. Fried. Chairman Engel, Ranking Member McCaul, members 
of the committee, I also appreciate the opportunity to appear 
before you today. The topic is relevant and timely and, for the 
record, I agree with my colleague and friend, Ambassador 
Nuland.
    President Trump once said that it would be nice if the U.S. 
got along with Russia. It would. But Presidents Bush and Obama 
tried and failed because neither would accept Putin's 
aggression abroad and repression at home. Putin's 
authoritarianism and kleptocracy keeps Russia backward. Reforms 
to develop Russia, rule of law, democracy, would end Putinism. 
Lacking democratic legitimacy, and increasingly economic 
results, Putin seeks to assemble a counteralliance of autocrats 
to support extremists to weaken the West and to counter the 
U.S. wherever possible. He wants to weaken the European Union 
and NATO and discredit democracy itself as an appealing 
alternative for Russians. Putin needs Ukraine to fail in its 
efforts to become a free market democracy closer to Europe 
because a successful Ukraine would show Russians that Putinism 
is not the only way for them.
    A wise U.S. policy toward Russia, therefore, would combine 
resistance to Russian aggression, efforts to reduce the risks 
of destabilizing clashes, and arms control, when possible, 
without unwarranted concessions or apologies; cooperation with 
Russia where our interests overlap, maybe on the DPRK and 
spread of weapons of mass destruction, without expecting too 
much too soon, and planning for potentially better relations 
with a better Russia. We should act in all of these things with 
our allies. The world's great and emerging democracies have the 
power and political legitimacy to maintain a rules-based system 
that favors freedom and advances our Nation's interests and 
other nations' interests.
    Mr. Chairman, your invitation to this hearing requested 
recommendations to combat Russian coercion. So, I offer the 
following:
    Strengthen NATO's Eastern defenses. After the cold war, the 
U.S. drew down its forces in Europe, and many European 
countries allowed their militaries to decline. I get it. We all 
wanted a peace dividend, and Russia appeared to be an emerging 
partner. But, after Russia's invasion of Ukraine, the U.S. and 
NATO changed course, deploying forces to the most vulnerable 
NATO neighbors. Our allies stepped up. The British lead NATO 
forces in Estonia, the Canadians in Latvia, and the Germans in 
Lithuania. And the U.S. leads NATO's battalion in Poland and 
has stationed an armored brigade in Poland on a rotational 
basis. These deployments seek to deter, to show Russia that it 
cannot mount a sudden assault on NATO countries, conventional 
or hybrid, without triggering a wider conflict.
    The Obama Administration deserves credit for leading NATO 
to make this shift, and the Trump administration deserves 
credit for continuing, even strengthening, it. More needs to be 
done. That means strengthening NATO and U.S. capacity for rapid 
reinforcement through additional forces and military 
infrastructure in Europe. It means strengthening NATO and U.S. 
cyber defense and deterrent capacity now underway.
    The U.S. and Poland have launched discussions about 
increasing the U.S. military presence in that country. This is 
a worthy initiative, and the Poles seem willing to carry their 
share of the burden. I support putting in Poland a mix of 
rotational units, standing deployments, and permanent 
infrastructure, integrated with NATO's defense plans.
    Second, defend against disinformation using democratic 
means. We need to combat Russian and others' disinformation 
while remaining true to our democratic values. As we learned in 
the cold war, we need not become them in order to fight them. 
Here is an action plan:
    The U.S. Government should support transparency and 
authenticity on social media, not heavy content control. This 
means disclosure of funders for political and issues ads, 
removing inauthentic and impersonator accounts, reassessing 
online anonymity. Angry Bob from Boise may, in fact, be Ivan 
from the St. Petersburg troll farm, and we should not let Ivan 
get away with it.
    We should also deal with the algorithmic bias on social 
media companies toward sensational and extreme content. 
Legislation and regulation do have a place. The U.S. needs to 
get organized to fight disinformation, a lead agency or 
interagency body, such as a national counter-disinformation 
center. We need to work with our friends. The EU is way ahead 
of the U.S. in addressing Russian disinformation. And we should 
consider a counter-disinformation coalition of like-minded 
governments, social media companies, and civil society groups 
to pool knowledge. Social resilience will work best in the long 
run. Teaching everyone from civil servants to children how to 
spot disinformation and manipulation ought to be standard 
practice.
    Third, we should employ the sanctions tool wisely. We are 
using sanctions a lot to deal with a lot of Russian 
misbehavior. There is a lot of Russian aggression around, but 
sorting out our options is a challenge. We need to decide what 
we are trying to achieve and with what priority. Do we want to 
use the threat of sanctions to push for a settlement in 
Ukraine? To deter Russia from interfering in next year's U.S. 
elections? To focus on Russian actions in support of Maduro? 
All of the above equally?
    I suggest the following: some sanctions options are 
available right now. We should be going after corrupt Russian 
oligarchs close to Putin. We should curtail channels for 
corrupt Russian funds and others' corrupt funds, such as the 
use of nontransparent LLCs for high-end real estate deals. We 
should proceed with care on energy sanctions. If we escalate, 
we should go after future Russian production, not cause a spike 
in energy prices, giving the Kremlin a windfall. We should 
focus our best sanctions options on key goals.
    The DETER Act aims to prevent Russian election 
interference. Its focus is laudable, but we have got other 
objectives as well. I think we ought to save our best sanctions 
escalatory options for Ukraine-related and election-related. 
Get them ready, because if the Russians act, we need to be able 
to respond promptly, and the Russians need to know that we are 
prepared to act.
    We should also continue human rights-related sanctions, the 
Magnitsky Act and Global Magnitsky, keyed to actual abuses. 
Volume is less important than the right targets. We should work 
with allies and maintain operational flexibility. We need to be 
able to remove sanctions if Russian behavior improves. 
Licensing authority is not a loophole; it is a safety net.
    Two thoughts at the end. Sanctions work if they are 
embedded in a policy that makes sense. The administration needs 
to articulate a Russia policy and mean it. But there is more. A 
Russia policy should be linked to an American grand strategy 
that recognizes that a rules-based world that favors freedom is 
in our national interest. At our best, America has recognized 
that our interests and values advance together or not at all.
    Putin and like-minded nationalists and despots stand for 
nothing but power. We saw the results of such thinking in the 
first half of the 20th century. America can do better. In fact, 
after 1945, and again after 1989, we did do better. Despite our 
mistakes and inconsistencies, U.S. leadership generated the 
longest period of general great power peace in human history 
and unprecedented global prosperity.
    Our current problems are severe, some of our own making. 
But I hope and believe that we will recall the values and 
purposes which propelled U.S. world leadership and produced so 
much good for so many.
    Mr. Chairman, Ranking Member McCaul, I appreciate the 
opportunity to appear before you to discuss these issues and 
look forward to your questions.
    [The prepared statement of Mr. Fried follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ambassador.
    General Keane.

STATEMENT OF GENERAL JACK KEANE, U.S. ARMY, RETIRED, CHAIRMAN, 
  INSTITUTE FOR THE STUDY OF WAR, AND FORMER ACTING CHIEF OF 
         STAFF AND VICE CHIEF OF STAFF OF THE U.S. ARMY

    General Keane. Chairman Engel, Ranking Member McCaul, 
distinguished members of the committee, thank you for inviting 
me today to testify. I am honored to be here with my esteemed 
colleagues, Ambassador Nuland and Ambassador Fried. I want to 
thank the committee also for your leadership in establishing a 
broad bipartisan effort in the Congress in holding Russia 
accountable, particularly for a tough sanction regime.
    The United States and our allies are facing a resurgent 
Russia to be sure that desires to change the international 
order that existed for 70-plus years, relitigate the end of the 
cold war, return Russia to the world stage as a global power, 
while challenging the American hegemon and increasing its own 
sphere of influence in a multipolar world. This sphere of 
influence, which is historically based, has grown rapidly in 
the last two decades to include Eastern Europe, the Middle 
East, South Asia, Latin and South America, Africa, and the 
Arctic.
    I spent over a year on the bipartisan congressional 
Commission on the National Defense Strategy, and we found the 
NDS accurately describes the strategic framework we are facing 
today with a return of big power competition with Russia and 
China while confronting North Korea, Iran, and radical Islam. 
However, the Commission believes the execution of the NDS is 
less than satisfactory and we are at considerable risk if we 
were to fight a conventional war with Russia or China today. 
The risk is driven by the harsh reality that United States 
military capability and dominance has seriously eroded. 9/11 
wars, budget reductions, and sequestration have enabled Russia 
and China to close the technology advantage that we enjoyed, 
and in some capabilities they actually exceed us.
    You asked for some recommendations, Mr. Chairman, and I 
will mention a few, and certainly we can take on some more in 
Q&A.
    First, we need to develop a comprehensive strategy to 
deter, confront, and engage Russia. The strategy should include 
ways, means, and ends to counter the Russian challenge, 
particularly the doctrine of hybrid warfare, which includes 
influence operations, election meddling, et cetera. It should 
be publicly endorsed by the President of the United States, 
using a whole-of-government approach, and developed in 
collaboration with our allies. That recommendation absolutely 
subsumes everything I am about to say in terms of its 
criticality.
    The Russian hybrid war threat advantages doubt and 
confusion. Making a positive declaration statement puts Russia 
on notice. A suggested statement, quote: ``The United States 
and NATO will regard the appearance of any Russian military 
forces, whether in uniform or out, and including private 
military companies, in any NATO member state as an attack 
defined by Article 5 of the North Atlantic Treaty, and will 
come to the defense of the member States.'' Unquote.
    Hybrid warfare is Russia's norm for applying force, 
influencing, and taking control, and the statement is just a 
step in the right direction in countering it. NATO, the world's 
most successful, enduring political and military alliance, 
which to date has prevented the calamity of another world war, 
NATO is an alliance that must be strengthened, as Ambassador 
Fried just mentioned, not just in terms of financial burden-
sharing, but in specific military capabilities from each member 
that directly contributes to deterrence.
    While there has been some improvement in forward-deployed 
forces in Europe, it is inadequate for a credible defense. 
Remember what we have learned through the cold war: to prevent 
a war, you have to be able to capably deter war. What is 
deterrence? Your adversary has to see the capability and he has 
know that you are willing to use it.
    While European forces need to be increased, it is essential 
that the United States deploy a corps-level joint and combined 
headquarters and a division headquarters with two armored 
brigades, in addition to what we already have. This is not a 
return to the cold war where we had two corps, four divisions, 
close to 400,000 troops.
    In Ukraine, Russia will try to manipulate the new, 
inexperienced President Zelensky, and, hopefully, not move him 
down the path of normalizing relations with Russia in order to 
get the Ukraine economy moving and to placate the oligarchs in 
getting Russian money. Europe and the United States must 
strongly engage Zelensky to support Ukraine's anti-corruption 
efforts and to strengthen their economic viability. And also, 
we need to help them add military capability.
    The Middle East. The United States should persist in 
renewing its leadership role in forming a Middle East Strategic 
Alliance, MESA, to counter Iran and reduce Russia's influence. 
Publicize Russian atrocities in Syria and those it facilitates 
by the Assad regime in Iran. Move diplomatically to reduce 
Russia's influence in Egypt and in Libya.
    And in Venezuela, Russia, who has made significant military 
and economic investments in Venezuela for years, is attempting 
to accomplish in the Western Hemisphere what so successfully 
they have done in the Middle East and Syria, prop up a 
repressive regime, which is an ally, and if successful, 
diminish U.S. influence in our own region. Russia, as part of 
its hybrid warfare doctrine, in January deployed 400 personnel 
from the Wagner Group, a private military firm that operates as 
a military unit. Their mission? Protect Maduro. Last month, 
Russia brought in actual military leaders and advisers to help 
with Venezuela's overall security. There is no doubt that these 
leaders are talking to Putin and his elites on a regular basis 
and they are in control of Maduro.
    The reality is that I give the Trump team high marks so far 
in dealing with Venezuela. However, when Putin interfered 
militarily--and let's face it, he truly has--we should have 
responded not just with rhetoric, but with strong 
confrontation. What am I talking about? We should have told 
Putin that we are going to put increased lethal aid in his back 
yard in Ukraine. And a phone conversation with Vladimir should 
go like this, ``Vladimir, you put military intervention into 
the Western Hemisphere. I am putting military aid into Ukraine. 
I am not going to stop it until you get out of Venezuela. You 
moved in there secretly; you can get out secretly. I do not 
need to talk about it publicly.'' And also expose the fact that 
Putin, in violation of the U.N. resolutions that he supported, 
is providing economic assistance to North Korea on a regular 
basis.
    Mr. Chairman, I am out of time, but I just want to mention 
two more recommendations.
    One, the most important issue for this committee is keeping 
the sanctions on Russia. They help to deprive Putin of the 
resources he needs to build his military to conduct major 
offensive operations, major conventional operations. Excuse me. 
They also help with his hybrid warfare threat, to deprive Putin 
of the resources to buy influence in other countries. So, 
continue to sanction additional oligarchs and entities involved 
in illegal activities.
    On human rights, one of the best pressure tools available, 
given Russia's obvious and continued pushback on it, the 
President should speak to this issue personally and hold Putin 
accountable. Reagan demonstrated that personal diplomacy with 
Gorbachev was still effective, despite Reagan's identification 
of the Soviet Union's human rights abuses.
    In conclusion, countering Russian aggressive requires 
steadfast American leadership in collaboration with our allies 
to establish a credible deterrence to war, the courage to 
confront aggression, and the openness to continue to engage 
Russia on issues of mutual benefit and concern. Certainly, 
nuclear disarmament is at the top of that list. Despite the 
progress made in countering Russia, there is much more work to 
be done, particularly in developing a comprehensive strategy to 
counter the Russian advance.
    Mr. Chairman and Ranking Minority Member McCaul, I thank 
you for permitting me to testify today and I look forward to 
questions.
    [The prepared statement of General Keane follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Applause.]
    Chairman Engel. OK, you brought your own cheering section.
    Thank you very much.
    While I know that my colleagues in the Senate are at this 
moment questioning Attorney General Barr about the Mueller 
report and Russia's interference in our own elections, I am 
concerned about the relationship between the President and 
Vladimir Putin and what that means for our foreign policy vis-
a-vis Russia.
    Ms. Nuland, in your statement you noted that ``our greatest 
challenge in countering the resurgent Russia is the lack of 
leadership, unity, and consistency in the United States in 
managing relations with Moscow.''
    So, I would like to ask the witnesses to address how 
President Trump's leadership on a series of issues have, I 
believe, undermined our response to Russia. First of all, I am 
concerned that President Trump's stated plan to withdraw from 
Syria essentially cedes the ground to Russia and other 
nefarious actors such as Turkey, and rewarding Putin's military 
intervention in Syria appears to have only emboldened him to 
act in Venezuela, as we saw yesterday.
    So, let me ask, starting with Ms. Nuland, how concerned are 
you that Putin feels free to intervene in a growing list of 
countries?
    Ms. Nuland. Chairman, I agree with you, and as I said in my 
statement, when we are unclear, when we are not strongly led 
from the Presidential level, that is the time for adventurism 
by Moscow. We have seen that in past decades and we see it now.
    And I do not think that this began with President Trump. I 
think we have been ambivalent about our leadership role for 
some time, including in Syria. But there have also been 
enormous opportunities missed by this administration.
    I will start, as you did, with Syria. When the 
administration redoubled force to clean out ISIS in Raqqa, that 
would have been the moment to redouble diplomatic pressure on 
Russia for a lasting settlement that would have kept Iran out 
and given the Syrian people an opportunity to choose their own 
path. And we squandered that.
    Similarly with regard to Ukraine, we had an opportunity 
when Russia moved in the Azov Sea to put passive naval monitors 
into that sea and protect the entire literal from the Azov into 
the Black Sea and into the Med, and we missed that opportunity.
    With regard to disinformation, Putin has understood that he 
presented the greatest national security challenge to U.S. 
freedom and democracy perhaps since the Cuban Missile Crisis, 
and we are inchoate and unclear in the way we are responding. 
And the statements by the President have all been about the 
linkages to his own legitimacy rather than the threat to U.S. 
national security. I would hope that the lesson from the 
Mueller report will be that it is time to turn the page and 
protect America now.
    Chairman Engel. Thank you.
    Second, President Trump seems to find common cause with 
certain autocrats, right-wing autocrats, in Europe, people like 
Viktor Orban of Hungary, who frequently supports Russia and 
serves as Putin's Trojan Horse in Europe. And this extends to 
Turkey, as I mentioned before, where we must not accede to 
President Erdogan's purchase of the Russian S-400 missile 
system, which will be disastrous for U.S.-Turkey ties. The 
procurement is a grave concern because it would undermine NATO 
interoperability and potentially give Russia critical technical 
insights into the F-35 fighter, which Turkey helps build and is 
planning to operate. It would also likely trigger sanctions 
against Turkey under Section 231 of CAATSA. We have made a 
last-ditch effort to convince Turkey to cancel the deal, 
offering the Patriot missile system instead.
    Let me ask, what other levers can the United States use to 
show Turkey that it is headed down the wrong path and that 
cozying up to Putin is a grave mistake? If anyone would like to 
answer that one?
    General Keane. Well, I certainly agree that Turkey 
acquiring the S-400, the most advanced air defense missile 
system in the world, is certainly contrary to our national 
interests, and particularly given the fact that I think you 
recognize that Turkey is part of that multinational group that 
is actually manufacturing the F-35. And you put those two 
together, and clearly, Russian technicians and intelligence 
personnel would have access to the stealth technology that the 
F-35 represents as a major U.S. penetrator. So, clearly, we 
have to push back on this and push back on it strongly.
    I also want to say something that you mentioned before, Mr. 
Chairman, about Syria. Russia saw the opportunity in Syria 
because we were not taking any consequential action to do 
anything about it, frankly. We had abandoned Mubarak as a 
result of the Arab Spring in 2010. We pulled out of Iraq in 
2011. We had a leader elected to replace Gaddafi, and all he 
wanted was some help to put down the militias that helped to 
overthrow Gaddafi, knowing they would overthrow him. And we 
refused him.
    As a result of that, Putin correctly assumed that the 
United States' normal leadership role in the Middle East had 
largely been abandoned, and he moved into Syria and conducted a 
tactical operational move with huge strategic implications for 
it. Every Arab country is now doing arms deal with him, and he 
is proliferating the building of nuclear power stations in the 
Middle East as well.
    And I believe our policy is uneven in this response. 
Certainly, the issue over Syria was not handled very well. We 
had made a commitment to stay in Syria I think for two reasons. 
The stated purpose was dealing with ISIS and make certain it 
does not reemerge, and certainly to counter the Iranians' 
influence in Syria, which is encroaching on Israel. And to 
suggest that we would just summarily pull out of Syria and 
abandon those two goals clearly was not in U.S. national 
interest. Fortunately, the President listened to advisors and 
was able to readdress that decision, and at least for the time 
being we are remaining there.
    But the unevenness of the policy I think creates doubt in 
the minds of our allies and, also, in the minds of our 
adversaries about the United States' determination to provide a 
leadership role in the Middle East, which I think is critical 
to U.S. national interests.
    Chairman Engel. Thank you, General. I absolutely agree with 
your statement. I think you hit it right on the head.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I think we both agree on Syria, and I think Turkey, a NATO 
ally, buying Russian S-400's is so contrary to the NATO 
doctrine. I go back to Reagan, Ambassador, you talked about, 
Churchill, Kennedy. You know, weakness invites aggression. If 
we leave a power vacuum in the world, and we do not lead, 
others will lead and they will follow. And that is kind of the 
primary premise. I think that is a problem in Syria. I think it 
is a problem with Turkey.
    You know, Reagan had deterrence, and that is why Gorbachev 
and Yeltsin came to the table and we had Perestroika. And we 
were able to actually have a conversation with Russia.
    Putin is a very different animal with a very different 
profile. I think he views, and if I had a behavioral scientist, 
he would say, or she, that he views them as traitors to his 
country, that they betrayed the glory of the old Soviet Empire.
    So, my question is, I mean, how do you deal--and I could 
talk about cyber forever and the cyberattacks going on--how do 
you deal with a personality, and that is what we are dealing 
with, who is leading his country, I think, in the wrong 
direction? But how do you sit down and do what Reagan did with 
Gorbachev and Yeltsin when you are dealing with a mindset that 
goes back to the KGB, and he wants to become Stalinesque? I 
think it is very, very difficult.
    And then, General Keane, I have one question for you after 
that. But if I could ask the panel that question? Yes?
    Mr. Fried. Mr. McCaul, I agree that Putin is leading Russia 
in a bad direction, bad for us, bad for Russia's neighbors, but 
also bad for Russia and the Russian people. Russian history 
suggests that authoritarianism at home goes along with 
aggression abroad, and that Russia turns to reform and 
modernization at home usually when their foreign aggression 
fails. That is a rough--that is not a precise rule. But the 
best way to get to a better Russia is to counter the aggressive 
Russia we now see.
    Gorbachev had to turn inward toward reforms because 
Brezhnev's aggression in Afghanistan, and elsewhere around the 
world, was seen to be failing. And then, we had the most 
hopeful period we have had since before World War II. Because 
Reagan was able to resist the Soviet Union's aggression abroad, 
we were able, then, to turn and help a genuine reformist Soviet 
leader. Now it did not turn out as we hoped, but the general 
pattern is there.
    I do not believe that Russia is destined by virtue of its 
history to be our adversary forever. It is now, but we can get 
to a better Russia if we are realistic about the Russia we have 
got now. We should not do dirty deals with Putin, sell out 
Ukraine, recognize his sphere of influence, none of that. We 
should be true to our values and confident that, if we are, we 
raise the odds of a better Russia we can deal with, and we 
should not rule out that possibility. I think your question is 
right.
    Mr. McCaul. Thank you.
    Ms. Nuland. I would agree 100 percent with that. I would 
simply add that Reagan also made Kremlin adventurism extremely 
expensive, whether it was having to match our own deterrence 
and arms buildup, whether it was playing directly to the 
Russian people about the human rights abuses and failures of 
their own country, thereby stirring up an appetite for change 
or, as Ambassador Fried said, supporting those countries that 
faced Russian aggression strongly.
    I have had--I am looking for the verb--the privilege of 
being in the room with President Putin five or six times over 
the period of 2015-16 on U.S. delegations. He is a highly 
transactional player, and the entire conversation is usually 
about what it is going to cost me and my friends if I do not 
work with you and how serious are you about the opportunity. 
So, this is a relationship that needs to be thoughtful or from 
a position of extreme strength and collaboration with our 
allies, but also with a clear path forward.
    Mr. McCaul. So, General Keane, you mentioned Russia in our 
hemisphere. I do not think we have seen anything like this 
since the Cuban Missile Crisis you mentioned. They have defense 
systems in Venezuela. They, by all accounts--and we talked to 
the Secretary this morning-stopped Maduro on the tarmac from 
leaving Venezuela to go to Havana because it is in their best 
interest to have Maduro in power.
    What is your take on that? I am very interested in your 
policy response to that. And that is the transactional nature, 
Ambassador Nuland, you mentioned. And that is, if you do this, 
if you go forward in the Western Hemisphere, what I worry about 
is you are going to say, ``Maduro, we are going to prop you up 
if you give us the military port in Caracas,'' strategic 
military port in Caracas. And your response is we are going to 
put more lethal aid in Ukraine?
    General Keane. Yes, I mean, this is a serious strategic 
issue that is taking place here. The framework for it is 
certainly Russia, China, and Iran, Turkey to a lesser degree, 
are supporting communist and socialist regimes that are not in 
the interest of the United States, and that is Venezuela, 
Nicaragua, and Cuba.
    This administration I believe has taken an action to push 
back on that, and I applaud them for doing it, not just dealing 
with Venezuela, but recognizing what the strategic framework 
truly is. In reference, Putin and China have both made 
significant investments in Venezuela for their own self and 
national interests, and they are about protecting that. But, 
for Putin, it is much more than that. This is a strategic move 
on his part into the Western Hemisphere, no less than his 
strategic move into the Middle East and using Syria as the 
vehicle of opportunity. And that is what he sees here.
    And he is using the same doctrine in a sense to do that. In 
the Middle East, he brought in a modest amount of military 
capability to achieve a strategic goal, because the Arabs all 
saw Russia standing up behind an ally in the region, at the 
expense of the United States who had failed to do that on a 
number of occasions just prior to that, and also failed to 
stand up significantly for the Syrian modern opposition forces 
which wanted to overthrow the Assad regime. So, that was a 
clarion call there.
    And the benefit he achieved out of that has encouraged him 
to take this other step in the Western Hemisphere. So, make no 
mistake about it, even though he is using hybrid warfare, 400 
military personnel, the Wagner Group--by the way, that is the 
same group that was in eastern Ukraine. That is the same group 
that we killed a couple of hundred of in Syria. That is the 
same group that is in Africa. He brought them in here for one 
reason only, to successfully prop up this regime. And then, he 
brought his advisors in here, and he has got highly qualified 
military and political advisors who are shoring up the Maduro 
regime.
    So, when the secretary of State says on national 
television, international television I would suggest, that 
Maduro is about to leave and Russia is calling the shots, about 
the same time Russia was having a national security meeting, is 
words for it. You know that Putin was told by his advisors that 
he is talking to on a regular basis what the actions were, and 
he is telling them, ``Hold him. Hold him, even if you have to 
do him at gunpoint. Do not let him get out of there.''
    And when Ambassador Bolton is talking about the three 
leaders, which was unprecedented to see the National Security 
Advisor of the United States on international television 
calling out the Defense Minister, the Chief Justice of the 
Supreme Court, and the head of the Presidential Guard for not 
complying with the weeks of effort that the United States 
diplomats had put into getting them to turn against Maduro, and 
calling them out for failure to do that is really 
extraordinary.
    While the Cubans have 20,000 goons in that country 
conducting paramilitary operations and killing the Venezuelan 
people, it is Putin who is impacting on the political control 
of that regime for their own national and self-interest, and 
the stakes are high because this is the Western Hemisphere.
    Chairman Engel. Thank you, General.
    Mr. Sherman.
    Mr. Sherman. Thank you.
    I will pick up on what Ambassador Nuland, that we have got 
to make adventurism expensive. And the greatest adventurism of 
this administration, of the Putin administration, was not to 
tamper with the territory integrity or sovereignty of Georgia 
or Ukraine, but rather, and boldly, to tamper with the 
democracy and the sovereignty of the United States. The U.S. 
intelligence has said unambiguously that the Russian Federation 
interfered with the 2016 Presidential election. And so far, our 
only response, the only pushback we have had, is we have 
identified a few Russian individuals who will not be able to 
visit Disneyland. They will not get visas. That is it.
    And so, which of the witnesses would agree that we should, 
in response to their interference with our sovereignty, 
prohibit U.S. persons from buying Russian sovereign debt? I 
just need a yes/no. I only have time for a yes/no.
    I see a yes from General Keane, a yes from Ambassador 
Fried, and a yes from Ambassador Nuland. Sounds like a good 
bill.
    General, I am sure that is it never a good military 
strategy to only have a defense and not have an offense. Should 
it be the policy of the United States to use our intel 
resources to discover, document, and publish the private 
communications of Putin, his government, and the oligarchs 
around him for the purpose of showing to the Russian people 
their theft, their crime, and their corruption? Again, I will 
ask for yes/no answers.
    Ambassador Nuland.
    Ms. Nuland. As I said in my statement, I do not know if I 
would phrase it exactly the way you did or speak in public 
about precisely what we would do, but certainly Putin's 
greatest vulnerability at home is----
    Mr. Sherman. Well, since we have done nothing yet, Congress 
would have to establish our policy. We do not have a secret way 
to do that.
    Ms. Nuland. Well, Congress has been doing a good job 
holding the line on policy. We commend you.
    My point would simply be that I think that we need to make 
sure the Russian people understand that they are being ripped 
off by their own government.
    Mr. Sherman. We have done nothing to accomplish that goal 
with the executive branch making the decisions. So, either the 
Congress requires that by statute, and there is no secret way 
to do it, or we continue the policy of having a dozen people 
not able to visit Disneyland.
    Ambassador Fried?
    Mr. Fried. I think one of the best pieces of the CAATSA 
sanctions legislation was the Congress' demand for a report of 
Putin's power structure. And it was called ``The Kremlin 
Report,'' identifying those cronies close to Putin. That really 
rattled Moscow----
    Mr. Sherman. But not nearly as rattled as they were by the 
Panama Papers.
    Mr. Fried. Right.
    Mr. Sherman. And if we could show pictures to the Russian 
people of the theft that has gone on, we can do a lot.
    I want to move on to another question, and it is really a 
question for all my colleagues here, because we are all part of 
political organizations. We saw in the last election that a 
foreign hostile power was able to obtain allies in the United 
States to provide information that was used. In this case, the 
NRCC took the information stolen by the Russians and made use 
of it in their campaign materials. And so, I would hope each of 
us, for the record, would answer the question, will we for our 
own campaigns, for organizations that we support, insist that 
campaigns not make use of materials stolen by hostile 
adversaries? I will ask everyone to respond to the record for 
that, since I cannot get answers from my colleagues.
    But if this committee cannot set the example and say, ``We 
do not want to benefit from the theft of information by foreign 
adversaries,'' then we are going to have a tough time.
    General Keane, you were with IP3. That is viewed as a 
spinoff of ACU, which was trying to get the Saudis to buy both 
Russian and American nuclear programs or power plants. Should 
we support selling Soviet reactors or Russian reactors to Saudi 
Arabia? And I do not know if you have or not.
    General Keane. No, that is not an accurate 
characterization. But I got involved with IP3 simply, as with 
three other foreign national security experts, simply for one 
reason, because the Middle East was going to go nuclear with 40 
nuclear power plants and Russia and China was going after that.
    Mr. Sherman. General, should we draw the line and tell the 
Saudis----
    General Keane. Absolutely----
    Mr. Sherman [continuing]. No nuclear weapons, no nuclear 
program----
    General Keane. Of course not.
    Mr. Sherman [continuing]. Without adequate safeguards. We 
drew the line for Iran and we told them they could not. Why 
not----
    General Keane. I am trying to say, Mr. Congressman, we got 
involved in this to prevent that from happening. We got 
involved in it because we did not want any nuclear 
proliferation, and we got involved in it because we knew they 
would not know how to secure it.
    There is no----
    Mr. Sherman. So, would you support turning to the----
    General Keane. There is no industry that is more regulated 
than that. The one----
    Mr. Sherman. General, I am going to reclaim my time and ask 
you, should we insist that, before Saudi Arabia goes with 
nuclear power plants, that they sign the additional protocol, 
agree to the gold standard limitations, and make sure that they 
are not using it as a front for developing nuclear weapons?
    General Keane. Absolutely, because there is no doubt the 
United States policy, and everybody I know who is supporting 
it, whether it is Saudi Arabia or any other country in the 
world, they have to sign a 123 Agreement. The government has to 
before any commercial entity can work with them to establish 
nuclear power, not nuclear weapons, because we do not want that 
proliferation. And Congress has oversight of the 123. You are 
going to have the say about it.
    Mr. Sherman. Our say on 123 Agreements is too weak, and we 
have legislation to make that say stronger. But my time has 
gone on. And I agree with you, we need tough controls.
    Thank you.
    Chairman Engel. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Thank you all for your testimony and for your leadership, 
each and every one of you.
    Let me just ask, Ambassador Nuland, hindsight is 20/20, and 
I think you made a very powerful statement about how Ronald 
Reagan set the gold standard for policy leadership vis-a-vis 
the Kremlin, and I agree with that. But, frankly, I lived 
through that. I have been on this committee since 1983. I got 
elected in 1981, 1980; took office in 1981. And Ronald Reagan 
was branded a warmonger when he responded to the Soviet Union's 
aggression and buildup with Pershing II missiles and with 
cruise missiles. He was branded a warmonger. And I sat on this 
committee. We had one debate after another. And yet, in 
hindsight looking back, peace through strength made a huge 
difference in terms of outcome. Even when he walked away from 
Reykjavik, he was branded by especially Members of the U.S. 
Senate in a very, very pejorative and very negative way by 
those individuals.
    Even when I traveled to the Soviet Union, my first trip on 
human rights on behalf of Soviet Jews, 1982, in January, the 
delegation members kept mocking Ronald Reagan in the presence 
of Kremlin leaders saying, ``Do not worry, he will be gone in 
1984. He is a grade B actor. And then, you can work with people 
that will work with you.''
    So, I do think that Donald Trump needs space. Now that the 
Mueller report said there was no collusion, he needs more 
space, I think, to operate within and to be strong. And, of 
course, what is happening in Venezuela is another clear example 
of a manifestation of Russian power. We saw it during the 
Reagan years with the FMLN and the Sandinistas operating 
through Cuba again. And again, that was branded as very 
negative as well. So, my hope is that there will be more space 
for the President to act decisively on behalf of American and 
Western interests.
    And you even said, Ambassador Nuland, that we need to 
respond to INF Treaty violations with advanced conventional 
deployments, and I agree with you. Peace through strength is 
the only way we are going to get from here to there.
    Let me also ask you, if you could, all of you, Poland has 
come forward--and, Ambassador Fried, you made mention of this, 
called it a worthy initiative. They have offered to put up $2 
billion for a permanent base there as a deterrent. And as you 
pointed out, the purpose of deployments is deterrence, and I 
think that buys a tremendous amount of deterrence. I met with 
President Duda and others; and they are very serious. Again, 
they are willing to put up real money. You might want to speak 
to that. It is very, very important.
    We also say that, when it comes to Africa--and, General, 
thank you for again bringing up the Wagner Group. Just 
yesterday, we had a hearing with Karen Bass in our subcommittee 
on CAR. And we know the Wagner Group is very active in CAR. 
They are facilitating the fleecing of that country of very 
precious metals. And, of course, they are bypassing the arms 
embargo imposed upon CAR, and the Russians are the ones that 
are bypassing it. And the U.N. peacekeepers are not doing, I 
believe, a good job in trying to stop that.
    Equally important is that Russia, since sanctions were 
rightfully imposed after the annexation of the Crimea in 2014, 
19 have signed on with Russia for agreements. Most recently, 
Burundi, Guinea, Burkina Faso, Madagascar now have cooperation 
agreements for weapons and training. So, again, the Russians 
are, in a nefarious way, spreading their tentacles, like the 
Chinese are doing, throughout Africa and the world. And we are 
seeing it, of course. So, we have a mega-threat with Russia.
    That said, one final comment, we do have to find places of 
cooperation, as you said, Ambassador Nuland, in the area of 
carrots. One carrot that I think we need to use now, and 
aggressively, is to work with them on mitigating the scourge of 
human trafficking. I am the prime author of Trafficking Victims 
Protection Act of 2000. And after that was enacted, President 
Bush_W. Bush_went ahead and did some great work with the FSB in 
trying to combat the buying and selling and the commodification 
of Russian women who were being sold in New York, being sold in 
northern New Jersey, all over the country, especially being 
sold in Russia. So, my hope would be that that would be an area 
where we could work in a cooperative way to protect those 
Russian women who are being so cruelly exploited. It would be a 
carrot, Ambassador. So, any comments, please?
    General Keane. I am glad you brought up Africa because 
Russia clearly is moving rapidly into Africa. They are 
interested in strategic bases in the Med, in Libya, also at the 
Red Sea, in Eritrea, and Sudan. They are expanding their 
military influence across Africa with security agreements, with 
arms sales, and with training programs. You mentioned the 
Central African Republic. Also, in Libya, Egypt, Algeria, and 
the Sub-Saharan. And they are also seeking new economic markets 
in energy resources, and Russia has major oil and gas interests 
in Algeria, Angola, Egypt, Libya, Senegal, South Africa, 
Uganda, and Nigeria. There is no doubt that they see Africa 
clearly as a sphere of influence for them, much as China does.
    Our commitment to Africa is very modest, to say the least. 
We have about a thousand civilians working there and about 
6,000 military there. And obviously, the State Department has 
the lead on Africa, but it is something we truly have to look 
at to see if our resources that we are applying is in our 
interest, given the geopolitical interest that China and Russia 
both have in Africa.
    Chairman Engel. Thank you very much.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    And thank you. Hi to all Ambassadors and general.
    Sometimes it seems funny, Mr. Chairman, anytime we are 
talking about Russia on the other side, I look and say, where 
is Dana Rohrabacher?
    Chairman Engel. I think he used to sit in your seat, Mr. 
Meeks.
    Mr. Meeks. And the reason why I say that is, just sitting 
here and I was listening to some of the testimony in my office, 
actually, and thinking through my time here in Congress. When I 
first came in, my thought was Russia was a big, growing country 
post-the cold war; things should change. We were more 
interdependent now with other countries around the world, and 
we were looking to talk about getting rid of Jackson-Vanik, so 
that we could have a better relationship. Things seemed to be 
moving a little bit better at that time.
    And then, actually, former President Barack Obama had an 
open mic talking to Medvedev, and he says, ``After the 
election, we will talk a little bit more.'' And then, we end 
up, starting with the Obama Administration, where we are now.
    So, it seems to me that, when it comes to counting Russia, 
it is difficult to prioritize where we should direct most of 
our efforts because in some instances it appears as though 
Russia is taking the shotgun approach to foreign policy, that 
they are shooting out anything that they can do, basically, to 
undermine the United States and its allies. And they try to see 
what sticks. They just throw something out against us and see 
what might stick against the wall. Other times, however, it 
seems like Russia is operating with a coherent strategy that is 
being directed from the top.
    So, I will start with Ambassador Nuland. In your opinion, 
does Russia have a coherent strategy for achieving its foreign 
policy goals? And does it have a specific end game that it is 
trying to reach? What are you thoughts on that?
    Ms. Nuland. I think President Putin initially, as he said 
in 2005, sought to restore the glory and spheres of influence 
of the Soviet Union, but now his appetite has grown with the 
eating. And as I said in my testimony, he believes we are weak 
and he can exploit our divisions. He believes we did not 
respond with the kind of strength he would have expected, 
whether it was in Syria or Ukraine or against the INF Treaty 
violations, or now in Venezuela. And therefore, as you said, he 
will take any target of opportunity to exploit and accrete into 
those spaces where we are not, whether it is undercutting 
democratic development in the Balkans, an area that the 
chairman and I have worked on a lot together, with corruption 
and those kinds of things; whether it is aligning with China on 
digital aggression and other things.
    So, I think he has a very coherent strategy. He wants to 
make the world safe for autocracy, and not just safe for it, 
but to make that an alternative governance model. And he wants 
to do that, in part, to stay at power at home because he is not 
offering his own people better schools or better hospitals or a 
better economy. He has to only offer them this illusion of 
glory.
    So, it is both a defensive and an offensive strategy for 
him, but he is not a thousand feet tall. You know, Russia has a 
GDP the size of Italy and three times the population and five 
times the land mass. We just do not have our act together, and 
we need to get our act together and be stronger at home, 
stronger with our allies, and roll it back. And I think we can, 
and give the Russian people another set of choices and call 
them to question whether they are actually living better in 
this system that he has offered.
    Mr. Meeks. Ambassador Fried.
    Mr. Fried. I agree with what Ambassador Nuland said, and I 
would like to build on it. Putin is an opportunist and his 
theory of autocrats can make progress because we have pulled 
ourselves out of the game. We need to remember that our 
strength was derived from our association and leadership of the 
free world. That is, we understood that values and interests 
ultimately were the same. That was our big strategic 
breakthrough decades ago, and we need to remember this.
    Because when we are spending--the Trump administration is 
right that we have reentered a period of great power rivalry, 
but, then, for God's sakes, let's align ourselves with our 
friends, the better to deal with our adversaries. We waste too 
much political capital in ideological fights with the European 
Union. The European Union can be a headache, but they are not 
our problem. They are not a strategic rival. We need to align 
ourselves with our friends on behalf of our values, and when we 
start doing that, we can push back most effectively against 
Putinism. Because, as Ambassador Nuland said, he offers power 
and not betterment of his own people. And we won the cold war 
when it became clear that the Soviet Union offered nothing but 
chaos and poverty, and that to its own people. We need to get 
back at that vision of ourselves.
    Mr. Meeks. Thank you. I am out of time.
    Chairman Engel. Thank you, Mr. Meeks.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I thank each of you for being here today.
    Ambassador Fried, with your background, having been 
Ambassador to Poland, the question that Congressman Smith had 
proposed relative to our association with that NATO ally, can 
you expound on this?
    Mr. Fried. Happily. I spent many years in Poland. The Trump 
administration is right to be talking with the Poles about 
increasing the U.S. military presence there. It is not just a 
bilateral deal. We need to do this within the NATO framework, 
and the Poles understand this. I should add that this is 
bipartisan in Poland. The government supports it. It is a 
conservative government. The liberal opposition supports it. I 
have asked them.
    This is the right thing to do, and it needs to be taken out 
of--our military presence in Poland needs to be put in a 
context of the united West, NATO, the U.S. and the EU, standing 
for our values of democracy and defending NATO allies. This is 
the right thing to do. I appreciate what the Trump 
administration is doing. I hope they close the deal. I really 
do.
    Mr. Wilson. Thank you very much.
    And, Ambassador Nuland and General Keane, in line with 
Congressman Meeks, the interference or strategy of Russia to 
interfere in elections, with the most recent elections in 
Ukraine, what is your assessment of the interference and did it 
have an outcome? Ambassador Nuland?
    Ms. Nuland. Well, interestingly, in the latest Ukrainian 
elections, the Russians had almost no influence. They did not 
have a candidate. As you saw, the outsider won an overwhelming 
majority all across the country, in part, because the citizenry 
does not think that there has been enough change in the anti-
corruption side and saw the other candidates as representatives 
of the old guard.
    So, it is interesting to watch Moscow unsure how to work 
with President-Elect Zelensky. I think we need to offer Ukraine 
strong, strong support and get in there with Zelensky when he 
sits, and encourage further reform, particularly on the anti-
corruption side, and continue to tie our assistance to Ukraine, 
to positive development there.
    The greatest nightmare for Russia is a successful Ukraine 
because, then, they will have a neighbor at their door that is 
democratic, and not to mention the example that Ukraine sets 
with democratic alternation of power that could not be 
manipulated from the presidency. That is something Russia has 
not seen in a long time.
    Mr. Wilson. Thank you.
    General.
    General Keane. Yes, dealing with Ukraine, I really think 
Putin has sort of got a wait-and-see attitude with it. 
Obviously, he is directly involved, but he is also exercising 
some patience. Because I think he fundamentally believes, given 
the problems that Poroshenko had in this election, so 
resoundingly defeated, the domestic reforms were never really 
put in place. He tied to corruption himself personally. And 
now, we have someone with no political experience whatsoever 
who is running the country. While that may not have been 
Putin's choice, I think he looks at it very favorably.
    And if the government cannot really produce a degree of 
political stability, and also a degree of economic viability 
and prosperity, Putin, it is on his side. He would be able to 
wait this thing out and achieve what his national interests 
are. I firmly believe that we have got to be more involved than 
what we currently are in terms of politically, diplomatically, 
and, also, militarily, in terms of helping their military 
forces.
    So, yes, in terms of our own election, I will take it at 
face value that it did not impact on the election. But I do not 
believe that that is the only goal that Putin has when he is 
meddling in elections in France and Brexit and the United 
States, and other countries. He is really seeking to undermine 
the democratic and political process. And given what happened 
in our country with investigations that are still going on as 
the Congress is meeting today, and the significant political 
divisions that we have in our country as a result of his 
meddling, he probably thinks that is a major victory for 
himself and encourages him to do even more of it.
    Mr. Wilson. And I thank each of you for your being here 
today and your insight, and we appreciate your service to our 
country.
    Chairman Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I want to underscore your comments in terms of the outrage 
of holding Paul Whelan for no legal reasons whatsoever in 
Russia.
    And also, I just want to comment briefly, I find it 
extraordinary that the top-line message of all of our witnesses 
today is that we are absent the resolve as a country right now 
in having a consistent Russia policy. I think that is something 
that is so obvious by your testimony, but really has to be 
highlighted. We have to do better than this as a country.
    Now let me probe a little more deeply in things you touched 
upon. Could you tell us, any of you, the relationship you have 
seen with like Deutsche Bank, dealing with the oligarchs and 
that relationship? Anything that you might want to comment 
about that kind of financial relationship with really the power 
brokers of Russia, the oligarchs? Plus, if you would comment on 
Putin's use of the VEB bank?
    Mr. Fried. In my last job in government, I was the State 
Department Sanctions Coordinator. So, I got into some of these 
issues.
    There is plenty of evidence that the Russians and Putin use 
the Western financial system to launder money and park it. They 
take advantage of our system because they trust our banking 
system more than they trust their own. We should start drying 
up the channels for potentially corrupt Russian money flows. 
For example, why should high-end real estate deals be allowed 
to exist without full disclosure of the beneficial owner? That 
means that Russian secret money can flow into New York or Miami 
or London or, you know, various places in Europe, without any 
kind of oversight.
    Mr. Keating. And we can do something stronger than we are 
doing now----
    Mr. Fried. Sure.
    Mr. Keating [continuing]. To influence that? Make sure, for 
instance, that there is compliance with our request for banks 
like this that might be conducting themselves this way right 
now.
    Mr. Fried. Well, I also believe that there are regulatory 
and legislative changes that could mandate disclosure of 
beneficial owners----
    Mr. Keating. OK.
    Mr. Fried [continuing]. In high-end real estate deals. I am 
in favor of that.
    Mr. Keating. Also, you know, the VEB bank, is it safe to 
say, fair to say that is Putin's bank, basically? That he has 
enormous influence? Is that fair to say, a fair statement?
    Mr. Fried. Let me say that----
    Mr. Keating. What message are we getting when past and 
current members of the Trump administration or campaign are 
meeting with the head of that bank in secret meetings? What 
message does that send back to Russia?
    Mr. Fried. In general, and without getting into the 
specifics, I think it is good to send the Russians a message 
that we do not appreciate what they are doing and passing that 
message, also, to the heads of the big state Russian banks.
    Mr. Keating. OK. I just want to shift gears, too. We have 
something that Russia does not have, for that matter China. But 
we have a coalition. So, in my subcommittee of this committee, 
I am going to have a laser-like view on strengthening that 
coalition.
    Just a few weeks ago, I was in Europe, met with our 
officials, and happy to report that the strength we have 
together with NATO is still vibrant. It is still formidable. It 
is obviously important.
    But it is no mistaking that Russia is using significant 
resources in Central Europe and the Balkans to extend their 
influence. And yet, they seem to have these relationships with 
Viktor Orban and Hungary, with Erdogan and Turkey, which is a 
great concern, and even influence in Serbia. That is something, 
if you could spend the rest of my time just commenting on 
briefly, because I think that is a concern. We want to keep 
this strong, and they are trying to divide us.
    Mr. Fried. With respect to Central Europe, we need to be 
active and present. I do not like a lot of what Viktor Orban 
has said about the Russians, but I do not regard Hungary as a 
lost cause. I think we need to show up. I think we need to be 
present in that space. I think that the Russian aggression has 
spoiled their relations with even some of their more 
traditional friends.
    Mr. Keating. Ambassador Nuland? I am sorry, I am running 
out of time, but I would welcome anything you have to say in 
that regard.
    Ms. Nuland. Thanks, Congressman Keating.
    As you and I have discussed privately, we know a lot about 
Russian money sloshing around Eastern Europe and the Balkans. 
We know a lot about its corrupting influence. I think it is 
time to shine a light on that and expose those who take it and 
expose the Kremlin's use of the Russian taxpayers' money for 
malign purposes.
    Mr. Keating. Great. Thank you.
    My time is up and I yield back.
    Chairman Engel. Thank you.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    And I thank the panel. We are privileged to have folks of 
your breadth and scope of knowledge.
    I want to start out with a basic premise, just to see if I 
can set the table, and then, go through some rhetorical 
questions to set up a question here. To me, contrary to popular 
belief, Russia really does not have a particular preference of 
which party in the United States. Their goal I think is to 
cause discord and spread disinformation and make people in 
America generally distrust our political system. Does anybody 
vehemently disagree with that, any of the panel members? I am 
not seeing any big yeses.
    So, with that, these are rhetorical questions. Let me 
preface it with this: every one of us here is probably 
disappointed in every administration's response to some of this 
stuff at some level. However, I think it is important to kind 
of correct the record over the long term here.
    How was it in the United States' interest to not realize 
the full extent of Russian influence operations, and then, the 
reluctance to act until after the election? How was that in 
America's interests? How was it in America's interest to do 
almost nothing of import and effectiveness regarding Ukraine 
and Crimea, regarding a resurgent Russia? How was it in 
America's interest to happily cut our military capability and 
telegraph that all around the world? How was it in our interest 
to scale back missile defense plans in Europe? How was it in 
our interest to allow Russia to play a pivotal role in the Iran 
nuclear agreement? And it was not in our interest, I do not 
think, to fail to get a multilateral agreement with Russia on 
the Syrian civil war.
    How was it in our interest when the previous President said 
to Medvedev that he just needed a little more time regarding 
missiles and our missile capability in Europe? How did it serve 
America to have the sale of U.S. uranium capability? And how 
did it serve America's interest to provide access to Russia 
regarding technology, including hypersonic cruise missile 
technology at Skolkovo? That is all the previous 
administration. Like I said, there is frustration on both 
sides.
    I wonder how long that Russia has been suspected of 
violating all the missile agreements or arms agreements. It has 
been since we have had them, essentially, right? So, my 
question essentially is this--and, Ambassador Fried, I agree 
with you; Americans do not want to be in a fight with Russia or 
anybody. We would like to get along with everybody. 
Unfortunately, the Russians have a vote, or at least their 
leaders do, and they vote otherwise, right? And we have to deal 
with the reality of that.
    And I wonder, because each of you has spoken about unity, 
Ambassador Nuland, Ambassador Fried, about unity in the United 
States, and, General Keane, you have as well, about our unity 
and our singular purpose regarding Russia. How can there be 
unity when some in positions of great leadership and authority 
continue to promulgate the narrative that this President is a 
traitor and a collaborator with Russia, based on what has now 
been determined by the Special Counsel, millions of dollars, 2 
years, subpoenas, interviews, et cetera, to be patently false? 
How can there be unity? How can there be unity when this body 
passes bills to limit this President's capabilities in 
Venezuela? That is just a general question. You can comment on 
that, any of that.
    Ambassador Nuland, you said a lot fast, and I wish I had 
your testimony, but you said something about the lesson from 
the Mueller report. And I think you referenced that this is the 
President's victory; it did not have anything to do with 
Russia. And I think the assumption was that this President 
needs to learn that lesson and move on. But I do not want to 
put words in your mouth. So, the lesson to who? Is it to the 
President or to folks in the United States and in this Congress 
that continue to accuse the President of being a traitor and 
collaborating with Russia? I am wondering who the lesson is 
for.
    Ms. Nuland. Congressman Perry, just to repeat what I said, 
the lesson of the Mueller report, and from our intelligence 
community before, was that Putin seeks, as you said, to pit 
Americans against each other, to destroy our democratic system, 
to erode trust. So, what I was trying to say was I think we are 
all seeking stronger Presidential leadership vis-a-vis the 
Kremlin to ensure that he cannot do it again in 2020, in 2022, 
in 2024, starting with some stronger statements. And I would 
like to have stronger statements about Russian activities in 
Venezuela and in Ukraine and in Syria. That would be a start 
and it would change Putin's calculus immediately. And then, if 
we had actual actions to strengthen ourselves and make it cost 
for him from this White House, that would also begin to reverse 
it.
    Mr. Perry. I think you will find few people up here on 
either side that would object to that. But would you agree that 
this President has been limited by the anchor that has been 
placed around his neck and thrown to the bottom of the ocean 
with this whole Russian collusion, ``you are a traitor, and you 
are working with them to undermine the United States,'' and 
that anything he does, even when the Russians actually come 
into compliance, we refuse to lift the sanctions on certain 
occasions in this body? Is that a limitation for this 
President, to this President, to this administration, in 
dealing with Russia effectively?
    Ms. Nuland. I would have argued the opposite, that if the 
President had taken a very strong stand against Russian 
aggression in our democracy from the day of his inauguration, 
he would have been stronger domestically as well in the context 
of the Mueller investigation.
    Chairman Engel. Thank you.
    Mr. Perry. General, I would love to hear your comment.
    General Keane. Well, I think that list that you presented, 
certainly, the degree that all that happened I suspect was a 
strategic surprise to Putin to a certain degree. I mean, 
clearly, when he came into power, he wanted to weaken the 
Transatlantic Alliance, for all the reasons we know so well. 
But, then, he was given, I think, an opportunity as the United 
States was disengaging to pursue other strategic objectives. 
And that is why he is in the Middle East. That is why he is 
aggressively in Africa, and now he is also in the Western 
Hemisphere.
    As Ambassador Fried said, he is an opportunist. He is 
smart. He thinks strategically, and he has taken advantage of 
the playing field. And that is what we are facing.
    Now I think it is a mistake to assume that, because 
President Trump desires to have a personal relationship with 
Putin as a result of his diplomatic efforts, that the United 
States is not pushing back on Russia. When you look at the 
policy, they are. What we are suggesting, and certainly what I 
am suggesting, is we can do considerably better than where we 
are right now, much more comprehensively, much more 
strategically, and much more involved with our allies in doing 
it.
    Chairman Engel. Thank you, General.
    Mr. Phillips.
    Mr. Phillips. Thank you, Mr. Chairman.
    And thank you to our witnesses. I am grateful you are here.
    There is a hearing occurring right now on the other side of 
the Capitol that surely is filled to the brim with observers, 
media, cameras, surely more Senators. And frankly, I am 
appalled and surprised and disappointed that this hearing is 
not attracting the same attention because I think that the 
gravity, the consequences, and the acute nature of it is one of 
the great risks to our country right now.
    If there is one element of the Mueller report I think on 
which we all agree, it is that Russia meddled in our recent 
elections and they seek to undermine our democratic process, 
and they will surely do so again. And we are not alone. I know 
the Alliance for Securing Democracy, in 2017, identified at 
least 27 examples of Russia meddling since 2004 in other 
countries.
    So, my first question is, are there methods being deployed 
by any of our allies around the world that have curbed or 
diminished the impact of such behavior? We would start with 
you, Ambassador Fried.
    Mr. Fried. Yes, during the French elections, the Russians 
hacked the Macron campaign and released a bunch of emails that 
were intended to embarrass him. But the impact in France was 
very different than what happened in the United States. The 
French civil society activists exposed the Russian play. And 
the big story in France, instead of the contents of the emails, 
was the Russians are trying to interfere in our election and 
the hell with them. That is my characterization.
    And that was an example of turning back a Russian effort in 
interfering in elections. What happened was society rejected 
it. And you also had civil society activists able to spot the 
Russian interference and a general population and media ready 
to expose it. That was a successful example.
    Now the Russians are not going to repeat the same tactics. 
They are going to evolve, but the basic model is there. That 
is, expose what the Russians are doing and, then, focus on that 
rather than get involved in whatever nonsense the Russians are 
peddling or whatever documents they have stolen. Yes, we can 
push back.
    Mr. Phillips. OK. Thank you.
    Ambassador Nuland.
    Ms. Nuland. Just to say I agree completely that the Macron 
example is the best one and the most publicly understood one. 
Sunshine is the best disinfectant. So, exposing this stuff for 
what it is, which is inauthentic interference in what should be 
a domestic conversation--the Germans also did very well with 
the influence campaign the Russians tried to enact when 
claiming that a Russian-German girl had been attacked, when, in 
fact, she had not. And the German leadership, led by Chancellor 
Merkel, exposed that for what it was, and created a much better 
understanding, I think, within the German public that they 
should question what they read in this regard.
    So, that is something that needs to be done in the United 
States. We also need better public education about this stuff 
and with our allies across Europe.
    Mr. Phillips. Thank you.
    General Keane, anything to add?
    General Keane. I associate myself with my colleagues on 
those comments. The one thing I would add is this 
administration has taken a positive step in deregulating our 
capability to respond through offensive cyber much more timely 
and rapidly than what we have had in the past in terms of 
decisionmaking authority and the layers of bureaucracy and 
lawyers you had to go through to do it.
    And we have been somewhat reluctant. We have absolutely 
hands-down the best offensive cyber capability in the world. 
The Russians have the second. And there are times when, 
clearly, it is appropriate to use it, when they are attacking 
us.
    As a result of that, that in itself becomes a deterrent. 
And I think now that there is more freedom to be able to use 
that, in concert with our values and in concert with 
appropriate oversight, hopefully, we will be able to use that 
as a way, also, of pushing back.
    Mr. Phillips. Thank you.
    One more question for Ambassador Fried. In the first weeks 
of the current administration, did it, indeed, try to lift 
sanctions against Russia?
    Mr. Fried. I believe that there was some consideration 
being given to that. I am being very careful the way I phrase 
it because I cannot prove it. I do not have documents. But I 
believe that there were some in the incoming team who simply 
wanted to do a quick deal. Now that was defeated, and it was 
defeated partly, in fact, principally, because of the strong 
reaction in Congress.
    As an executive branch veteran, I am not usually a believer 
in legislation to impose sanctions. In this case, I think what 
Congress did with the CAATSA bill, now law, it was the right 
thing to do under those circumstances.
    Mr. Phillips. Thank you, Mr. Ambassador.
    I yield back.
    Chairman Engel. Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    And thank you for the panel.
    One of the growing concerns, obviously, is Russia, and that 
is why we are here today. We see them going from the failed 
USSR to where they are today. And we all know that Putin wants 
to rebuild the Russian Empire. And we cannot change what has 
happened in the past, you know, with past administrations. We 
are here today at this point.
    And what I see is that change in world powers, the tectonic 
shift in world powers that we have not seen since World War II 
and at the end of the cold war. And now we are seeing a 
resurgence with a strong China. And the concern that we have 
today is what is going on in the Western Hemisphere. It is 
something that we really need to pay attention. And I think 
this goes way beyond just Venezuela and Maduro. I think this is 
a rubicon moment where Russia cannot allow Maduro to fail; Cuba 
cannot allow Maduro to fail, because if they do, if he does 
fail, that means the Russian system and the Cuban system, and 
even the Chinese and Iran with their influence in there, and a 
little bit of Turkey, it all shows that those kind of 
autocratic or communist regimes or dictatorial type of regimes 
that suppress people cannot succeed.
    What are your thoughts on that as far as moving forward, as 
far as holding Russia accountable? What can we do to offset 
what they are doing in the Western Hemisphere? Whoever wants to 
take the first--General Keane?
    General Keane. Well, I totally agree with the premise that, 
strategically, it is much more important, what is taking place 
in our Western Hemisphere because of the implications; that I 
think the Trump administration got it right strategically 
immediately; that asking for a transition of government with 
Maduro after he manipulated the election, and there was 
somebody available to take over who is President of the 
National Assembly, and working to get global support for that, 
now up to 54 countries, was the right thing to do because I do 
believe the national security team saw the strategic 
implications of it in terms of the impact on Nicaragua and, 
also, Cuba, and particularly the heavy hand that the countries 
that you identified have in these States in terms of Russia, 
China, Iran.
    Mr. Yoho. And they are all anti-Western democracies.
    General Keane. Absolutely. And particularly, Russia and 
China see this--China, obviously, leads with economic 
investment----
    Mr. Yoho. Sure.
    General Keane [continuing]. And intimidating along with 
that, but Russia leads also with hybrid warfare intervention as 
well as economic investment. And they certainly see the 
opportunity to exploit their national interests in our 
hemisphere.
    Mr. Yoho. Let me come back to you because I want to ask you 
about----
    General Keane. And it is critical----
    Mr. Yoho [continuing]. The hyper warfare.
    Ambassador Fried, if you would want to weigh-in on what 
your thoughts are on that?
    Mr. Fried. Maduro and the Cubans and the Russians want to 
make this about the Yankees leaning on a sovereign state.
    Mr. Yoho. Right.
    Mr. Fried. That is not the real issue. Therefore, our play 
ought to include working as closely as we can with Latin 
American countries, which I think this administration is doing, 
and with the European Union, which the Europeans are on the 
side of Venezuelan democracy. We ought to use this to isolate 
the Russians and not let them frame this as a kind of Yankee 
imperialist thing.
    And that is why I hope that this administration will keep 
building relations and investing capital in our allies, so we 
can use it in common causes.
    Mr. Yoho. We are going to help them do that. We just came 
back from a bipartisan delegation trip to Colombia, and we 
bordered the Venezuelan border.
    Ambassador Nuland, if you have anything you want to add to 
that?
    Ms. Nuland. Just to say that I think your premise is right. 
This is not only about great power competition; this is about 
ideological----
    Mr. Yoho. Exactly.
    Ms. Nuland [continuing]. And systemic competition again. 
And we need to fight with and for our team.
    Mr. Yoho. We cannot afford for this not to--Maduro has to 
go. And I hope the first thing that legitimate President Guaido 
does is throws out all foreign military personnel out of his 
country.
    General Keane, I want to go back to, during a recent 
speech, the top general of Russia, Valery--I am going to 
butcher this--Gerasimov, the so-called creator of the Russian 
``active measures,'' doubled down on Russia's use of hyper 
warfare. Do you feel Russia is ahead of us in hyper warfare? 
And if so, do you think that Bradley Manning or Edward Snowden, 
with the intelligence breaches that they did, played into 
Russia's hand and made them jump ahead of us in this? What are 
your thoughts on that?
    General Keane. Well, first of all, General--Gerasimov is a 
brilliant strategist.
    Mr. Yoho. Thank you for saying that properly.
    General Keane. And what drove them to this is they were 
quite stunned by the liberation of Kuwait, when they saw the 
prowess of the United States military and coalition partners, 
but largely the United States military and the integration of 
air power and ground power and high-end conventional warfare. 
And then, once again repeated with the liberation of Iraq in 
2003, so much so that they changed their strategies. They 
recognized they could never deal at that time with a high-end 
conventional war.
    And General Gerasimov developed a doctrine with some 
leaders around him that we can try to achieve our geopolitical 
objectives and operate below the level of major conventional 
confrontation. And so, influence operations, election meddling, 
they are all part of the fabric of that, disguising the use of 
Russian troops, massive disinformation campaigns. And 
particularly, on their own domestic audience, on the United 
States audience, the information campaign, when they went into 
Crimea and Ukraine, was so significant, it paralyzed 
decisionmakers in the United States----
    Mr. Yoho. Right.
    General Keane [continuing]. And in Europe as to what is 
this. It cast doubt about the execution of it. It does not look 
like warfare, but, yet, they seem to be taking control.
    Mr. Yoho. And very astute at it.
    General Keane. Yes.
    Mr. Yoho. I am out of time, but I would love to followup 
with you on that. Thank you.
    Chairman Engel. Thank you, Mr. Yoho.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thanks to the panel for being here today.
    We have seen just in the past decade or so Russia has 
launched military incursions into Georgia and Ukraine, 
intervened in Syria to support Assad, in Venezuela to boost 
Maduro, backed a coup attempt in Montenegro, used chemical 
weapons as a tool of assassination in Europe. They tried to 
destabilize democracy in Europe, in the United States, most 
notably, interfering in the 2016 election. Volume 1 of Special 
Counsel Mueller's report notes that ``The Russian government 
interfered in the 2016 Presidential election in sweeping and 
systematic fashion,'' but, then, meticulously details how the 
Kremlin meddled in our democracy. And the U.S. intelligence 
community unanimously reached the same conclusion in January 
2017.
    Let me start with that last point and move backward. That 
is what the Kremlin tried to do here in 2016. I ask, starting 
with you, Ambassador Nuland, to talk about Russia's attempts to 
meddle in democratic elections elsewhere and, as we are having 
this discussion in advance of the EU elections, let's talk 
about that, and then, the role that Russia has played in Europe 
in helping to promote some of the far-right parties who have 
now attained places in government in countries for the first 
time in history, please.
    Ms. Nuland. Thank you, Congressman Deutch.
    Just to remind that Russia's manipulation of elections, and 
its perfection of its strategies and tactics for this, began in 
Russia itself as it sought to manipulate elections for 
President Putin and his allies and various techniques there, 
moving into the first cyber efforts that we saw in Estonia in 
the aught years, and then, as we have discussed throughout the 
hearing, their efforts in France, their efforts to strengthen 
far-right and far-left parties in order to stress the center of 
politics in countries from Germany to Italy, to many believe 
that they were active in the Brexit vote as well, and 
certainly, playing in the Eastern and Central European Rim.
    And it is not simply their digital tactics and techniques. 
It is also their other tools of influence that are as old as 
Russia and the Soviet Union itself, buying politicians, setting 
up false flag NGO's, creating inauthentic conversation within 
politics and policies.
    So, this is well-practiced. It predated the digital age, 
but it is now turbocharged in the digital age. So, as we all 
said in our testimony--and we outlined some concrete steps--
this is not an insurmountable challenge if we harden ourselves 
here, if we expose what is going on, both with digital and with 
money, and with corruption of politicians, and if we work in 
concert with our allies to pool information, and if we are 
willing to apply some of the same medicine to Putin himself 
where he is vulnerable at home, notably, on corruption.
    Mr. Deutch. Ambassador Fried.
    Mr. Fried. So, one of the knocks against the European Union 
is that it is a big bureaucracy, but they are way ahead of us 
in dealing with disinformation. One thing they know how to do 
is regulate. The European Union has forced big social media 
companies to sign onto a voluntary code of practice, basically, 
promising they are going to clean up their act. This gives the 
Europeans leverage. In my view, we ought to be talking to the 
Europeans, coming up with a joint plan, and using our combined 
leverage to get the social media companies to do the right 
thing. Exactly as Ambassador Nuland said, purge the inauthentic 
accounts, the imposters, cleanup social media, so that the 
Russians cannot infiltrate it.
    These are all doable, and I am not talking about censorship 
or content control. If the Trump administration believes that 
great power rivalry pits us against autocratic foes, then we 
ought to align ourselves with our democratic friends, 
operationally, not just rhetorically.
    Mr. Deutch. General, if I may, although I have a lot of 
questions, I would like to ask a followup there. And actually, 
Ambassador Fried, I am particularly interested in Russian 
support in promoting white nationalist narratives and ideology. 
Perhaps we could talk about that after.
    General, I just want to turn to Russia in Syria. Is there a 
role to play--talk about Russia's relationship to Iran and 
Syria. Can they be counted upon to limit Iranian influence in 
Syria? Is their sole goal, as you referred to, to achieve their 
positions with the port? What can we expect? What is reasonable 
to expect?
    General Keane. You know, that is a great question, 
Congressman. Qassem Suleimani, acting on behalf of the Supreme 
Leader, in 2014, visited Moscow twice and met with Vladimir 
Putin to motivate him to conduct a military intervention into 
Syria. Initially, they did not agree, and they were painting a 
picture that the Syrian opposition forces, largely led by the 
radicals, were having their way with the regime that they had 
not had in some time. And then, finally, Putin agreed that 
summer, and you saw the intervention take place in the fall.
    The Iranians run the war in Syria. They run the ground war. 
The IRGC has had two to three of their generals killed. They 
direct the air power that is being used. So, even though Russia 
is a much larger country geopolitically, it is the Iranians who 
are really truly in charge.
    And so, the thought that Putin is somehow going to curb 
Iranian behavior, it is not going to happen. The Iranians are 
fixed on their strategic objective, which is regional hegemon, 
at the expense of the United States, and to encroach on the 
sovereignty of Israel. They are about that business, and Russia 
will not be able to reduce their strategic objectives.
    Mr. Deutch. OK. Thanks. Thank you.
    Yes, yes, go ahead.
    Ms. Nuland. Just to say that it actually serves Russia's 
interest to have Iran there because they learned from 
Afghanistan and from our experience in Iraq that they, 
themselves, do not want to be on the ground. They want to have 
another country do that dirty work. So, they want the Iranians 
on the ground keeping social order and those things, and they 
want the Cubans on the ground in Venezuela. So, this is a 
strategy that is well-honed now.
    Chairman Engel. Thank you.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And again, all of you, thank you for being here. This is a 
great panel and on a really important subject.
    I actually am really worried about really the last few 
years kind of where foreign policy has gone in terms of our 
ability to talk about it. I think the days of kind of consensus 
foreign policy and having polite debates has kind of gone away 
and everything is now being seen through a political spectrum, 
which is actually pretty frightening to me, given that we are 
the United States of America and we have such an important role 
to play in the world.
    Look, under the last administration, Russia meddled in the 
election. I a hundred percent believe that. I believe President 
Obama should have been clear at the very beginning of what was 
happening. The question now is not how do we continue to look 
back and lay blame at people's feet; it is, how do we prevent 
it in the future? How do we go forward and make it clear to the 
American people when they are reading a news article that is 
actually produced by Russian propaganda, and then, is being 
retweeted by RT, and then, ends up on Facebook? It ends up in 
Twitter, and now is basically seen as gospel. We saw that 
happen the last election, and it is going to happen again this 
time.
    So, I think if we can now as a committee come together, and 
as a country come together and figure out how to expose that, 
and say, look, I do not care who you elect for President of the 
United States, but I want it to be an American decision, not 
influenced by especially the Russians.
    I want to look at our hemisphere. We have talked a little 
about Venezuela, and I want to ask you, General, a question. If 
the United States--so, this committee passed, I do not know if 
you guys know this; thankfully, it has not passed, I do not 
think, the floor yet, but passed a preemptive prevention of the 
President from using military action in Venezuela. So, 
thankfully, it is not going to be passed by the Senate and 
signed by the President, but I think it was a terrible message 
to send out of the foreign policy committee.
    But let me ask a question of you, General. If the United 
States--we are talking hypothetically and just your 
definition--if the United States placed a 20 to 25 thousand 
troops into Venezuela and surrounded Guaido, would you consider 
that--do you think the Webster definition would call that a 
military intervention? I mean, I am just asking generally, 
would that be considered a military----
    General Keane. Where are the troops?
    Mr. Kinzinger. U.S. troops, let's say.
    General Keane. Yes, but where physically are they?
    Mr. Kinzinger. We would put them right in the middle of 
Venezuela.
    General Keane. Of course.
    Mr. Kinzinger. OK. What about if the United States had, 
basically, intelligence assets and counterdefense, things like 
that, if we put them in Venezuela? I would say that would also 
be considered military intervention. So, the question, the 
point I make is, Cuba has already intervened militarily in our 
hemisphere. The Russians have already intervened militarily in 
our hemisphere. So, when there is this preemptive thing about 
we are worried about military intervention in the hemisphere of 
the United States of America, Russia and its allies have 
already intervened militarily in our hemisphere in Venezuela.
    And so, my question to you is this: we, obviously, know the 
terrible thing of what is going on. And I think the future of 
the United States of America and our hemisphere is going to be 
dependent on what happens in Venezuela. It is going to be, is 
this a march toward freedom? I mean, we talk about our issues 
on the southern border and they are serious, but the reason is 
because people are fleeing corrupt leaders; they are fleeing 
corrupt countries, and they are fleeing the inability to have 
freedom. They are fleeing cartels. A strong Central and South 
America is good for the United States.
    So, let me ask you a question. Would a U.S. show of force--
so, as we are looking at this debate in Venezuela and saying, 
really, the key is what side is the military on, does the 
military side with Guaido or does it stay with the illegitimate 
government of Maduro? Would a U.S. show of force, not a 
military intervention, but putting military assets nearby and 
making it clear that we exist, would that be beneficial, do you 
think, General, in helping to change the calculus of some of 
these military generals?
    General Keane. Well, certainly the premise that you are 
making about intervention militarily by the Cubans and 
certainly by Russia--as I said, it is part of their hybrid 
warfare doctrinal playbook--is a serious intervention and has 
huge strategic implications. I think the opening of the door to 
Cuba and hoping that somehow they would move toward democratic 
values and free enterprise, I do not see any evidence of that. 
They are still maintaining their aggressive stance.
    Given the volatility of the situation that exists in 
Venezuela, I do not think, one, we should take any military 
action at this time. Two, I do not think we should even 
contemplate such a thing without consulting with our allies in 
the region and, if military action was called for, to do it in 
concert with them.
    I would, if I was working for the administration, I would 
not be recommending military action. I would be recommending 
exactly what the administration is trying to do, which is 
cultivate the leadership that is around Maduro and separate 
that leadership from Maduro--and there is some evidence that 
some of that has been working--and continue those efforts.
    And why? Can the United States roll into Venezuela and 
conduct some kind of military operation similar to what we have 
done in the past in Haiti or Panama and bring it to a 
conclusion? Yes, but, also, military operations, despite the 
best of intentions, have a tendency not necessarily to go in 
the direction that you want them to go. And then, as a result 
of it, we also own the aftermath of that, what has taken place 
in that country.
    So, I would exercise caution, even though there is energy 
surrounding this and there is the desire to want to do 
something. And we certainly do not want thousands of Venezuelan 
people killed in the streets.
    Mr. Kinzinger. Thank you. And I will just say, but taking 
that option off the table preemptively does not help diplomacy 
in that matter.
    General Keane. Well, it should never come off the table.
    Mr. Kinzinger. Right.
    General Keane. I mean, I can imagine any President, 
Democrat or Republican, would always want that on the table as 
leverage to use diplomatically.
    Chairman Engel. Thank you.
    Mr. Kinzinger. Thank you.
    And, Ambassador Nuland, I had so many questions for you. 
Good to see you.
    I am way out of time. I will yield back.
    Chairman Engel. Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    And thank you, Ambassador Fried, for continuing to point 
back to the CAATSA Act of 2017 as things that we can actually 
do in Congress.
    And, Mr. Chairman, Ambassador Fried made reference to a 
report, and I ask unanimous consent to add to the record the 
unclassified report to Congress to Section 241 of the CAATSA 
Act of 2017. And that was dated January 29, 2018. Mr. Chairman? 
Mr. Chairman, unanimous consent to add that to the record?
    Chairman Engel. Yes. Yes, without objection.
    Mr. Bera. Thank you.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bera. I think the Russian people would be pretty 
interested in the large number of oligarchs that are worth over 
a billion dollars. I think the Russian people would be 
interested in who their top government officials are, what they 
are worth, et cetera, where the wealth of Russia is actually 
going. I think some of my concern--we do have strategic tools 
to get this information out there. I think it ought to make 
them a little bit worried, and we ought to be using those 
tools.
    My concern with the administration is Vladimir Putin is 
playing, if we were playing cards, he does not have a great 
hand that he is playing, but we keep folding our hand, so he 
keeps winning round after round.
    We had our disagreements with the Obama Administration, but 
we had the ability, as Members of Congress and as the Foreign 
Affairs Committee, to sit down in classified and unclassified 
settings, to voice those differences, but at the end of the day 
to speak with one voice. And we understood what that strategy 
was, whether we agreed with it or did not agree with it.
    The challenge we are having with the current administration 
is, you know, Ambassador Nuland, you were asking me what our 
strategy in Venezuela is. I do not have an answer for you right 
now. And that concerns me. We can do our job, having hearings 
and trying to shine the light on it, and express our voice as 
Congress, but we have got to come up with a coherent, sustained 
strategy with agreed-upon goals that both the administration 
and Congress is doing.
    I guess my question to the three of you, as the chair of 
the Subcommittee on Oversight, what would be some 
recommendations that you would have me do or this full 
committee do from the congressional perspective. We do not want 
to dictate foreign policy, but we have a role in this foreign 
policy. Similar to what we did with CAATSA, what are some 
things that you would like us to do to send a strong message to 
Russia that this is not OK? Ambassador Nuland, why do not you 
start?
    Ms. Nuland. I think the increased pace of hearings of this 
committee is very, very important. You should have a government 
panel on Russia where you ask what the overall strategy is and 
how it is being implemented. Similarly on China, I do not know 
whether you have been having hearings on China. I assume you 
have. But I think it has been difficult for folks who are 
working at the level that Ambassador Fried and I and General 
Keane work to know, in fact, what is a legitimate place to push 
and what is not.
    I just want to come back to something you said at the 
beginning. I was honored when I was Assistant Secretary to come 
before this committee probably eight times, I think, between 
2013 and 2016, to talk primarily about Ukraine, but also 
Ukraine, Russia, Cypress. And I felt at all times, even when we 
disagreed or even when we were not doing as much as you might 
have wanted, the bipartisan conversation and the rigor of that 
that we could have helped us to be better. So, I would 
encourage you to bring the administration up, because that 
might also strengthen folks in the engine room, because they 
will have to articulate the policy.
    Mr. Bera. And we do think there are good folks within the 
various agencies, et cetera, that share the same concern.
    So, Ambassador Fried?
    Mr. Fried. There are certainly capable people throughout 
the U.S. Government, NSC, State Department, Treasury, 
intelligence community, who understand the Russia problem, who 
are capable of dealing with it at that level. They need, the 
U.S. Government needs clear Presidential leadership and a 
strategic framework in which the elements that we have been 
discussing here all morning can be fit.
    Mr. Bera. Great. And let me make sure. So, the employees of 
the State Department, USAID, the DoD, et cetera, I think we 
have patriotic Americans out there serving us every day that 
want that clear direction and want that ability to go out there 
and execute a strategy,
    General Keane.
    General Keane. Well, I think what we lack is what we have 
tried to talk about, all three panel members in our own 
individual way. Dealing with Putin today is very different than 
what Reagan was dealing with Gorbachev, who was trying to 
salvage a regime that was in decline. And we are dealing with a 
very aggressive and assertive Russia here who is operating 
right on the edge in terms of achieving his national and self-
interest.
    But, yet, given the seriousness of this, the administration 
has done a very good job in their national security strategy, 
in national defense strategy, in laying out the problem. But 
what they have not done a very good job in is putting together 
implementation and a strategy to deal comprehensively with 
Russia and comprehensively with China. And then, also, have the 
President personally and publicly be an advocate for that 
strategy. That needs to be done.
    Mr. Bera. And, General Keane, maybe that is what we can do 
in our appropriate oversight role, is help lay out that 
strategy in a way that we can hand over to the administration 
and, obviously, let them execute a strategy that does not stop 
with one administration or another. In the cold war, it was a 
sustained strategy and Congress did have a big role. So, I do 
look forward to our doing that. There is nothing that stops us 
from creating a select committee to look at the Russian 
interference in the 2016 election and come up with strong 
recommendations of how we can counteract that.
    So, thank you for your service.
    With that, I will yield back.
    Chairman Engel. Thank you.
    Mrs. Wagner.
    Mrs. Wagner. I thank the chairman and the ranking member 
for organizing this hearing.
    And I thank our witnesses for their time and their 
tremendous public service.
    I represent the St. Louis metro area, which is home to the 
largest Bosnian community outside of Bosnia and Herzegovina. 
About 20 years ago, our Bosnian neighbors fled to St. Louis 
after war criminal Ratko Mladic initiated a horrific genocide 
against majority Muslim Bosniaks. The Dayton Agreement ended 
the Bosnian War in 1995, as we know, but today Russia is 
undermining the peace agreement. Frankly, they are undermining 
peace and freedom, as we have seen in Syria, as we have seen in 
Georgia, the Ukraine, our own elections, now in Venezuela, and 
across the globe. But they are undermining the peace agreement 
by encouraging separatists in the Serb-majority Republika 
Srpska. I am deeply concerned that Russia is fueling ethnic 
divides in the interest of weakening the Bosnian state.
    Ambassador Fried, how can the United States counteract 
Russian activities in Bosnia?
    Mr. Fried. The Russians are acting throughout the Balkans 
to try to prevent those countries from drawing closer to or 
joining the EU and NATO. An attempted coup in Montenegro; the 
Russians tried to block the agreement between Greece and North 
Macedonia----
    Mrs. Wagner. Yes.
    Mr. Fried [continuing]. Which is one of the best pieces of 
news----
    Mrs. Wagner. Yes.
    Mr. Fried [continuing]. To come out of the Balkans in 
years. And I am reasonably confident that the Russians would 
rather instigate conflict rather than let Bosnia-Herzegovina 
succeed in reforming itself. So, I think they are playing the 
card of potential secession of Republika Srpska, to prevent 
that from happening, and, also, to prevent Serbia, which is the 
big game, from turning westward in a decisive way.
    What we can do is principally show up, work with Europe in 
support of plans to integrate all of these countries into the 
West; have them draw closer to the European Union and get on 
track for EU ascension. That is powerful. The EU has money; 
Russia does not. The EU, throughout Europe and throughout the 
Balkans, means prosperity and----
    Mrs. Wagner. Well, the EU needs to engage----
    Mr. Fried. Right.
    Mrs. Wagner [continuing]. Because I am very concerned about 
this. And further, let me just say, because I have got such 
limited time----
    Mr. Fried. Yes.
    Mrs. Wagner [continuing]. Further, in Georgia, Russia uses 
a strategy of, I will call it creeping annexation, to quietly 
seize more and more Georgian sovereign territory. Sometimes it 
is yards at a time. Today, Russia has managed to convert about 
20 percent of Georgia's internationally recognized territory to 
disputed territory.
    General Keane, how should the U.S. response to Russian 
aggression in Georgia differ from its response to the Ukraine 
conflict, where Russia moved much more quickly and decisively?
    General Keane. Appreciate the question. We have begun to 
take some steps to assist them. Certainly, last year we 
provided them anti-tank weapons to the Georgia military, and we 
conducted some critical military exercises with the Georgians 
right on the 10th anniversary of Russia's invasion. So, we are 
not ignoring them certainly.
    And I also think what we need to do is encourage our 
European allies to be as involved as we have begun to be in 
Georgia. Also, obviously, they already are dealing with 
Ukraine.
    I do not believe for a minute that the issues of success 
that Russia has enjoyed using the hybrid warfare, that we have 
to cede to that success. We have significant geopolitical 
influence. We have economically things that we can do. And 
certainly, militarily, there are some things that we could do.
    Mrs. Wagner. Well, we all must collectively step up, NATO, 
the EU, and the U.S.
    Russia's behavior has been increasingly aggressive in the 
Sea of Azov and the Kerch Strait. After Russia seized the three 
Ukrainian vessels near the Strait last November, the United 
States conducted, I think, a freedom of navigation operation in 
Peter the Great Bay, the first since the cold war.
    Ambassador Nuland, what other methods can the U.S. use to 
encourage Russia to comply with international laws that govern 
the use of maritime commons?
    Ms. Nuland. Well, we eventually did exact some sanctions, 
but it took about 6 months. If we had been ready ahead of time 
and been able to move quickly, and move in a way that had hurt 
the Kremlin a little bit more, we might have been able to have 
more immediate impact.
    But what is most important, I think, is how do you keep 
Russia from accreting into more Ukrainian territory.
    Mrs. Wagner. Right.
    Ms. Nuland. So, when they build bridge across the Strait, 
and then, they landlock, essentially, with that bridge major 
grain ports of Mariupol and Berdyansk in Ukraine, they 
essentially gain by sea what they could not gain by land.
    So, my favorite idea--and I do not know whether the 
administration considered it--was put forward by Carl Bildt, 
former Swedish Prime Minister and Foreign Minister, which would 
have been to have the OSCE or some coalition of interested 
neutral naval powers like Finland and Sweden offer patrolling 
to keep the Sea of Azov open for both Ukraine and Russia. And 
that is the kind of passive eyes on the street, if you will, 
that we might have been able to organize and help pay for.
    Mrs. Wagner. Very important. I am glad we had the testimony 
today for the record to submit to the administration.
    I have run out of time. I appreciate the chair's 
indulgence.
    I thank you all for your service.
    And I yield back.
    Chairman Engel. Thank you. The gentlelady yields back.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Good afternoon. Thank you all for being here.
    I represent a district in Pennsylvania. Pennsylvania, as 
you undoubtedly know, has the second largest population of 
Ukrainian-Americans in the United States. My district, which is 
the Lehigh Valley of Pennsylvania, has a very significant 
Ukrainian-American population, and they have shared with me 
some of their concerns about Russia and its activities in 
Ukraine.
    Mr. Fried, if I may, you wrote in your testimony that 
``Putin, like Soviet leaders before him, seeks to weaken the 
European Union and NATO and to discredit the idea of democracy 
as a potentially appealing alternative for Russia.'' Clearly, 
the Kremlin does not want Ukraine to succeed in its attempt to 
transform itself from a Putin-dependent government into a free 
market democracy that grows closer with Europe, because, 
obviously, that would show Russians that, if Ukrainians can 
succeed in such a transformation, perhaps so could they.
    So, what I wanted to ask you is whether you could discuss 
Russia's strategy to counteract the efforts of nearby countries 
that are trying to build or expand democratic governments, and 
what we, the United States, need to do, in turn, to counteract 
Russia's efforts to stop democracy in those countries such as 
Ukraine?
    Mr. Fried. You are right that Russia fears a successful 
democratic Ukraine because that would be a body blow, and 
possibly a fatal body blow, to Putinism, not to Russia, but to 
Putinism. Russia's tactics, well, Russia seeks to prevent all 
of its immediate neighbors, Georgia, Ukraine, from becoming 
successful, modern democracies drawing closer to Europe.
    They manufacture conflicts. They create border problems. 
They seize territory. In the case of Ukraine, it was their 
association agreement that triggered the protests that led to 
bloodshed and, then, the Russian intervention.
    What we can do is help the reformers in those countries. We 
know how to do this. We did it after 1989 when the Berlin Wall 
came down. We helped the Poles. We helped the Baltic States. We 
helped the Romanians. And we succeeded. We ought to be getting 
behind the reformist forces there.
    Ukrainians have had trouble maintaining a steady pace of 
reform. Now they have demonstrated a free and fair election. 
They are going to have a new President. They are going to have 
parliamentary elections.
    General Keane has said this, and I agree with him, we need 
to help the Ukrainians deliver at home for their people and 
fight corruption. That was the big deal in the last elections. 
In doing so, the Ukrainians will generate political capital for 
themselves, draw closer to Europe. And all the world's big 
problems, Ukraine is the one with the greatest chances of a 
really good outcome for the United States, for the Ukrainian 
people, and for freedom generally.
    Ms. Wild. And do you believe that U.S. support is critical 
in order for Ukraine to accomplish that?
    Mr. Fried. U.S. support and European support together.
    Ms. Wild. OK. Thank you.
    And to Ambassador Fried or Ambassador Nuland, since 2014, 
the United States has used sanctions as a central tenet of 
foreign policy to counter Russian aggression. And yet, 
sanctions have not led to Russia's withdrawal from Ukraine, nor 
did they prevent an escalation of Russian involvement in Syria, 
or prevent Russia from increasing support to the Maduro regime 
in Venezuela. How important is it that we coordinate United 
States sanctions with our European and other allies? And how 
can we do a better job of coordinating those sanctions? And the 
last part of this, because time is running out, is, what advice 
would you give to this administration to improve the 
effectiveness of sanctions?
    Mr. Fried. The last administration coordinated sanctions 
with the European Union. I was the chief negotiator. So, I did 
this.
    We may have to escalate our sanctions in support of a 
Ukraine settlement. If we do so, we should do so with Europe. I 
hate to say it, but my old office, the Sanctions Coordinator's 
Office at State, was abolished. You need a negotiator. You need 
somebody with rank doing it.
    Ms. Wild. Thank you.
    My time is up. Thank you, Mr. Chairman. Thank you.
    Chairman Engel. Thank you very much.
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman, for having today's 
hearing.
    I wanted to ask a couple of important questions to give 
everyone an opportunity to respond with the limited amount of 
time.
    Nord Stream 2, I think it is, in my opinion, not in the 
best interest of the United States and our allies to be 
pursuing further development of Nord Stream 2; that it would be 
great for an ally like Germany to be pursuing more energy 
cooperation and expansion between the United States and 
Germany, rather than seeing expansion between Germany and 
Russia. Thoughts on Nord Stream 2? Thoughts on the way Germany 
should be handling it?
    Ms. Nuland. Thanks, Congressman Zeldin.
    We worked very hard on this in the previous administration 
to try to slow down the process of Nord Stream 2 and to work 
specifically with the European Union. So, the European Union 
has very tough rules, called the Third Energy Package, on when 
and where you can build pipelines. And so, when we worked with 
the European Union, we were able to question things like the 
security sustainability, the environmental reliability, whether 
Germany actually needed this energy, whether there were other 
alternatives. We also worked with all the literal States, the 
States whose territory and undersea passages the pipeline would 
pass through. And we were able to slow it significantly. I 
think that is a better strategy than simply rhetorically 
beating the drum, at the same time that we try to bring more 
U.S. LNG and other global LNG as an alternative to Europe, and 
particularly to Germany.
    Mr. Zeldin. Any other witnesses want to weigh-in with 
regards to Nord Stream 2?
    General Keane. Well, I agree with the sentiments already 
expressed. I would just add that I think the United States, in 
concert with our European friends, can do more in the energy 
sector, particularly natural gas, in terms of impacting 
Russia's major sources of income, which largely surrounds 
energy, obviously, as almost a one-commodity country. And the 
geopolitical implications of that are obvious, and we can 
clearly be more aggressive about it.
    Mr. Fried. I never liked Nord Stream 2, did not much like 
Nord Stream 1. I do not favor the use of sanctions to try to 
kill it, but I think Germany needs to do more to mitigate the 
strategic downsides of this bad idea, by which I mean they 
ought to show leadership in Europe to create alternative 
sources of natural gas and LNG, and weaken the Russians' 
ability to put Europe in a hammerlock through the use of energy 
blackmail.
    Mr. Zeldin. Any of the witnesses familiar with letters sent 
last week by the German ambassador to the United States to 
Members of the U.S. Senate with regards to Nord Stream 2 and 
possible retaliatory actions by Germany? There was a story that 
came out yesterday in The Wall Street Journal. It was 
previously reported just before the weekend. The German 
ambassador sent letters to United States Senators threatening 
retaliatory action as it relates to the LNG that was just 
referenced in your answers to the last question.
    What we have been experiencing with the--by the way, the 
United States Ambassador to Germany, Ric Grenell, is doing a 
fantastic job. Every time he sneezes in a way that a German 
politician does not like, someone is calling for him to be 
kicked out of the country or some other horrible response. And 
it is unfortunate that Germany is not embracing an opportunity 
to improve dialog with someone who is honestly reflecting the 
policy of the United States under the current administration.
    I, in response to the letters being sent by the German 
ambassador to the United States, am not going to do what the 
Germany politicians will do to Ambassador Grenell. The German 
ambassador is stating a policy, a position, a statement, a 
threat, however you want to take it, on behalf of the German 
government, and I do not believe that it is a good idea for us 
to stop talking to the German ambassador. I do not think it is 
a productive idea to threaten the German ambassador or call on 
Germany to replace the German ambassador.
    So, I think that this is an important moment, specifically 
as it relates to Nord Stream 2, and a reflection of the 
behavior of German politicians as it relates to our U.S. 
Ambassador to German, who is doing a fantastic job; that 
between allies we should be able to have honest conversations 
between our countries and move forward in a healthier, more 
productive manner. We might be in a different place with Nord 
Stream 2. We should get to a better place with Nord Stream 2 as 
well as increased LNG imports. And the threats are not helpful, 
but I am not going to respond the way the German politicians 
would respond to Ambassador Grenell.
    But I appreciate all the witnesses for being here, and for 
the chairman for holding today's hearing.
    I yield back.
    Ms. Spanberger [presiding]. Thank you.
    The chair recognizes Mr. Espaillat.
    Mr. Espaillat. Thank you, Madam Chair.
    I would like to focus my questioning in a different light, 
really more about the 2016 elections and Russian meddling. And 
we may differ on collusion; we may differ on obstruction of 
justice, but, clearly, given the Mueller report, there is no 
doubt, absolutely no doubt, that the Russian government 
blatantly interfered in U.S. elections in 2016.
    We saw that in Volume 1 of the Mueller report, as early as 
2014, the Russian Internet Research Agency, IRA, was actively 
working to influence the 2016 elections through aggressive 
social media campaigns and actually on the ground in the U.S. 
In fact, they sent agents to gather intelligence in the U.S. as 
early as 2014. The IRA used political ads, bought social media 
space, forums falsely engaging American voters, and to stoke 
hate and fear. And the IRA also hacked into state election 
boards and voter systems and companies which sold election 
software to state boards of elections across the country. They 
targeted congressional races as well. Maybe some of the members 
in this committee, their districts were targeted.
    My question is the following: did the Russians tamper with 
State voter systems? Did they tamper with voter lists or 
systems across different States? Ambassador Nuland, or anybody 
on the panel?
    Ms. Nuland. I believe that it is publicly disclosed now 
that they successfully acquired voter rolls in some States, but 
I do not believe was proven that they were able to actually 
manipulate or change voting, which is not to say that they did 
not try and not to say that they will not try going forward. It 
is certainly a strategy that they use at home.
    Mr. Espaillat. Do you know which districts or which States 
were targeted by this activity?
    Ms. Nuland. I do not have that. I am sorry. But I have 
testified a number of times before Senate Intel and House 
Intel. I think they can help you with that.
    Mr. Espaillat. OK. The Mueller report further States that 
the Russian government interfered in the 2016 Presidential 
election ``in sweeping and systematic fashion'' in regards to 
hacking attempts of state boards of elections. So, I want to 
also ask, if proven that they have, in fact, tampered with 
state elections and voter rolls or lists in those respective 
States where you may have front-line or competitive races that 
will determine the majority of this institution, do you feel 
that state law enforcement or Federal prosecutors have the 
right to go after these folks, including some potential 
collaborators in the United States? Anybody?
    Ms. Nuland. I mean, I think as we have all said, we need a 
much stronger, Presidentially led set of policies and tools to 
deal with this. I would include in that strengthening our legal 
and regulatory regime, so that any Americans who are 
participatory willingly and knowingly in any of this, including 
influence campaigns or voter suppression, or any of it, face 
far harsher legal penalties, including LPRs and others in the 
United States. So, there is a lot more we can do within this 
basket. What you mentioned is one aspect, but it is much bigger 
than that.
    I just, while I have the mic, will mention that I think 
when CIA Director Haspel came up to the Hill not too long ago, 
she called for more resources for the CIA. FBI also has seen 
its ability to counter this stuff attrit at the end of the cold 
war. So, when you think about what Congress can do, that is 
another area to really strengthen our intelligence resources 
and coordination through a fusion center.
    Mr. Espaillat. Finally, as we work to counter Russia's 
malign activity in the U.S. and around the globe, I want to 
ensure that we are targeting the Russian government and 
ensuring that Russian citizens and civil society do not suffer 
because of the Putin regime. Can you suggest principles 
Congress should follow to strengthen dialog with the Russian 
people and for supporting the civil society in general in 
Russia? I think that is an important component that has not 
been addressed.
    Mr. Fried. During the cold war, we successfully reached out 
to Russians, Ukrainians, Poles, Balts, all manner of people. We 
let some of that capacity atrophy. It is now a digital age. I 
think that we ought to develop tools to reach out to them, both 
directly, but also by supporting civil society groups. 
Democracy promotion can work if we are not too impatient. It 
takes time, but it can yield spectacularly good results. Again, 
we learned this during the cold war.
    And I think reaching out to the Russian people is possible, 
but it is probably not possible if the lead is a bunch of 
government bureaucrats. I think outsourcing, as the Reagan 
Administration did in its day, is the way to go. But I think 
that a long-term struggle and long-term outreach to the Russian 
people is in our interests.
    Mr. Espaillat. Thank you.
    Thank you, Madam Chair.
    Ms. Spanberger. The chair recognizes Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    We have had several hearings during this 116th Congress. 
Many of those have dealt with both China and Russia. And my 
question to each of you is, do you feel that the greatest 
threat to our national security comes from China or Russia? And 
I guess it is two-part. As it exists today, and then, looking 
forward 5 to 10 years from now, do you see that change? Ms. 
Ambassador?
    Ms. Nuland. Congressman Guest, I believe that we face 
significant challenge from both. As we have talked about today, 
I do not think Putin's Russia is a thousand feet tall. I think 
we have got the tools and the organization, if we choose to use 
it, to blunt his ability to hurt us.
    I think the China challenge is much different, much less 
well understood, and will require a very long-term effort 
because they are richer, because they are more ambitious, 
because they have been more successful at accreting 
economically and industrially into our and our allies' 
strategic areas of concern. So, again, if this were a China 
hearing, I would be calling for a whole-of-government approach, 
Presidentially led, rather than simply trade talks or these 
talks, but China is a generationally issue, I believe.
    General Keane. The way I would express it is, I do not 
think we should play one off against the other, but I do 
believe that China is a long-term strategic threat to our 
national security interests. The engine of their economy 
certainly is that. President Xi has made some rather 
fundamental strategic decisions that his predecessors had not 
made, and that is to dominate the Western Pacific and Asia, and 
they are well on their way to achieving that. They are using 
gray zone operations, again, operating below the level of 
conflict, to achieve those ends. And he has also publicly 
stated, again, very different from his predecessors, that they 
fully intend to replace the United States as the global leader 
of the world.
    And they are the fastest-growing military in the world. 
They now have 355 combat ships. That is a little north of the 
amount of ships the United States Navy has in its entirety. 
They have offensive missiles that can hold our carrier battle 
group at bay in the Western Pacific and can reach every, every 
single air base that we have in the Pacific today. They are 
rapidly developing hypersonic missiles which can destroy 
surface fleets in a manner of minutes.
    So, clearly, their geopolitical No. 1 strategy is economic 
around infrastructure and energy, but they are also at the same 
time projecting power globally militarily with bases in the 
Mediterranean, in Pakistan, and major investment tools, at the 
same time building a military capability that would take 
advantage of some of the vulnerabilities that the United States 
military has.
    Long-term strategic threat, to be sure; the most important 
bilateral relationship I think the United States is involved 
in. We have got to work this thing to try to get it right. We 
certainly do not want to go to war. I do not think they want to 
go to war with us, but their strategy is very aggressive and it 
is being done at the United States' national interests and 
those of our allies.
    Mr. Guest. Ambassador Fried, let me ask you another 
question because my time is limited here. In your report, you 
state that, ``For the last 20 years after the end of the cold 
war the United States drew down its forces in Europe, and many 
European countries allowed their militaries to decline.'' Have 
we begun seeing in Europe the rebuilding of those militaries 
which were allowed to decline after the end of the cold war? 
And to what extent?
    Mr. Fried. Yes, but not enough, is the short answer. Partly 
under pressure from President Trump and President Obama, 
European defense spending has increased, deployable forces is 
increasing, and NATO has decided to take seriously the Russian 
security threat. So, this is good news. Not enough has been 
done, but, clearly, the direction is going the right way.
    The countries closest to Russia, the Balts, the Poles, the 
Romanians, are spending a lot more and their capability is 
growing. The Germans need to do more, but their defense 
spending is increasing. We get too involved in a lot of 
rhetorical battles, but we need to build on this good momentum 
while we keep pushing for more.
    Mr. Guest. Thank you, and I yield back.
    Ms. Spanberger. Thank you.
    Thank you to our guests.
    I am going to recognize myself right now.
    My first question is in response to the question that Mr. 
Guest posed. Ambassador Nuland, you made the comment--and I 
hope I quote you correctly--that we have ``the tools and the 
organization'' to address the threat posed by Russia. And I was 
curious if you could quickly expound on that. What are the 
tools, what are the organizations, and how could we make them 
stronger, so that we are successfully addressing the threats 
posed by Russia?
    Ms. Nuland. Thank you, Congressman Spanberger.
    As I say in my testimony, we need, first, unity of effort 
inside the U.S. Government, then with the Congress, and then, 
with allies, and then, with our populations. We need to use all 
the tools of power, military, economic, digital, et cetera.
    Each of these challenges is different and requires a 
separate line of effort. I tried in the testimony to go through 
the kinds of steps that I would recommend to deal with the 
digital aggression, to deal with military buildup, et cetera.
    But, specifically, sanctions are useful, but only when they 
are with allies, when they are targeted, when they can be 
ratcheted up, and ratcheted down when we can come to agreement. 
So, in the Donbass negotiations that I was working on, we were 
getting to the point where we were going to need to show Russia 
that good behavior would lead to some sanctions coming off. But 
when Russia stalled in those negotiations, I could have used an 
escalatory ladder. But, by the same token, what is most 
important is that we are strong and that we are not willing to 
give on things that Russia wants or to give them the prestige 
or the face, if you will, of good relations unless they are 
working with us, rather than against us. And that has to be 
Presidentially led.
    Ms. Spanberger. You mentioned the Presidentially led 
element of this, and I think that does present some unique 
challenges. Certainly, as we have seen in the past couple of 
days, the past week, a focus on the Mueller report. And I know 
that a number of my colleagues have mentioned this. I am 
curious, from your perspective--we have seen the Mueller report 
highlighted the systematic disinformation campaign and 
offensive cyber efforts against our election system. One of my 
concerns, as a former intelligence officer, is that this is an 
example of a first-step overture; this is an example of 
aggressive behavior and tactics that they were willing to take 
in 2016 against our elections, perhaps before that, perhaps in 
2018. Speaking specifically about what is in the Mueller 
report, it is 2016.
    Do you have concerns that these same sorts of aggressive 
tactics could be used against our electrical infrastructure, 
our electrical grid, our financial institutions, the hacking, 
spearfishing, those sorts of efforts, separate from some of the 
information and disinformation campaigns? Do you have concerns 
that those might be in Russia's toolbox in things that they 
might be willing under some circumstances to deploy against us?
    And, Ambassador Fried, you were visually responsive. So, I 
am going to start with you.
    Mr. Fried. Sure. We would be derelict in our duty as a 
nation if we were not concerned about this. And this is not 
hypothetical. We saw the Russians go after the Georgians, go 
after the Estonians. And this was 11 years ago, 12, and the 
Ukrainians all the time.
    Of course, this is going to be in our toolkit. Now I want 
to give the U.S. Government some credit. We have stood up Cyber 
Command. They are active. They are working on hard security. 
But, as Ambassador Nuland has said, this has to be a whole-of-
government effort, it has to be Presidentially led, and we 
cannot send mixed signals.
    General Keane. To understand that issue, first of all, yes, 
the Russians have clearly the capability, as the second best 
offensive capability in the world, to impact our financial 
banking system as part of our critical infrastructure, our 
utility grids, our transportation system, et cetera. They would 
not do that, in my judgment, pre-conflict operations because we 
would know they did it, and they know that we would respond 
very aggressively to something like that, because the impact on 
us would be catastrophic. It is like using a nuclear weapon.
    However, during conflict operations--and we know this for a 
fact--all of those tools would be used against the American 
people in the homeland. Not only that, as we are trying to 
deploy our forces--and you saw our forces deploy to Iraq and to 
Kuwait and to Afghanistan, and we called that a permissive 
deployment, where we moved at a time and place of our choosing 
and no interference. That is over. That will never ever happen 
again with a major power like Russia or China. They will 
interfere with all of that and disrupt it with cyber and, also, 
with kinetic weapons. So, yes, conflict operations have changed 
dramatically because of the very sophisticated offensive cyber 
operations that our adversaries could conduct if we were in 
that kind of a conflict.
    Ms. Spanberger. Thank you to the witnesses.
    And the chair recognizes my colleague from Tennessee, Mr. 
Burchett.
    Mr. Burchett. Thank you, Chairlady.
    And I will be brief because I realize I am standing in the 
way of possibly you all getting to the restroom and lunch. So, 
I will be brief in my questions.
    I actually had this for the general, but I am curious if 
any of you all else would like to comment on it, that China and 
Russia, they have shown an incredible ability to work together 
almost hand-in-glove with each other when it comes to thwarting 
U.S. interests. However, opposite the cold war era, it is now 
Moscow that plays the junior partner, it seems to me, junior 
partner to Beijing. Do you all think that Putin is OK with this 
as long as U.S. interests are checked or Russian pride 
eventually will win out? I guess this is getting more into the 
psyche of Mr. Putin, who I have seen pictures of him riding a 
bear, but I think those are Photoshopped, for the record, but I 
would just be curious.
    Mr. Fried. I think that is an important point.
    Mr. Burchett. And for the record, I do not care at all for 
him.
    Mr. Fried. I think you have made an important point. I 
believe that China and Russia are perfectly willing to work 
together to thwart the United States on an opportunistic basis. 
However, in any kind of Russian-Chinese alliance, Russia is the 
junior partner. And I do not believe the Chinese have forgotten 
how the Russians treated them when they were the senior partner 
in the 19th century. And what I have said to Russian audiences 
is that light at the end of the tunnel that you think you see 
may simply be the Chinese waiting for you to emerge and they 
will eat you alive, because Russia should think twice before it 
signs on to be the junior partner of China. I think that that 
would be a mistake, and I think that someday the Russians will 
start to realize it. And even now, some of them will whisper, 
if they think no one else is listening, that they are concerned 
about where Putinism leads them.
    Ms. Nuland. I have served in both countries, lived in both 
countries. They are not natural allies politically, culturally, 
economically. In fact, they are quite vicious about each other 
in closed chambers.
    I do think the worry now is that there is a lot of learning 
going on both ways, particularly in the digital space. You 
know, the Russians are learning about facial recognition and 
deepfakes from the Chinese, and the Chinese are learning about 
influence operations and voter suppression from the Russians, 
and that is just the beginning, not to mention their military 
interest beginning to align, and particularly what we have 
talked about throughout the morning about this club of 
autocrats trying to reverse and change the rules of the liberal 
international system. So, I think we have to watch it.
    The Russians did not enjoy after we put on crippling 
sanctions in 2015 in their energy sector and their banking 
sector. They went to the Chinese for investment, and they did 
not enjoy that exchange because the Chinese really jacked them 
up. So, we can also play in that space, if we are playing to 
contain and deter both of them.
    General Keane. When you look at it politically, 
economically, and militarily, I do not see them coming together 
in an alliance to support each other across all of those 
sectors. I think they find each other useful at times, and 
certainly dealing with what was the American hegemon. And 
certainly, China does have some economic interest in Russia, 
surprisingly, even though they have only 150 million people in 
that country and their economy is in the tank. Russia is 
currently building a pipeline to China for oil, which is pretty 
significant because 62 percent of China's oil still comes from 
the Middle East. And it is why China is opening a navy base in 
Djibouti, because they know that, if we had a conflict with 
China, we would shut down that oil coming out of the Middle 
East. So, I think that they see utility in the relationship, 
but I do not see an alliance.
    Mr. Burchett. A young man from--it is not in my notes--but 
visited me yesterday, and he was from an area, the district of 
Powell. And he wrote a poster and I guess a brief on China and 
their ability to go into these countries and do things, you 
know, dams, hydroelectric, and things like that. And they would 
get into it, and they would get about three-quarters of the 
way, and then, they would pull the plug on some of it. And he 
surmised that the reason they did that was they would be more 
dependent upon them, and then, they would be more indebted to 
them. Does that ring any truth to you all, that sort of 
philosophy with China?
    You know, I was in Israel and I was saddened to see that 
their deep port was, in fact, done by the Chinese, or, as my 
father would say, ``the Red Chinese,'' but the Chinese.
    General Keane. The strategy you are talking about there 
deals with mostly emerging nations where China has come in and 
they are going to build infrastructure projects for them, and 
they negotiate high-interest loans where the country has 
difficulty paying off the interest. And as a result of it, 
China owns the infrastructure. When it is an energy 
infrastructure, it impacts geopolitically on influencing 
control in that country.
    But, with a more industrialized state where they have 
significant investment projects in Africa, South America, South 
Asia, et cetera, they do not deliver a quality product. They 
insist on Chinese labor force. And second, the product is not 
up to standard. I believe this strategy is eventually going to 
catch up to them, unless they make some significant changes.
    One, they are bullies and intimidators. And I have been 
around Southeast Asia and other places talking about China to 
those leaders there. Clearly, China has huge influence, but 
going along with that, there is a price to be paid in that 
relationship. And some of that price is not welcome in Beijing; 
that is for sure. They are quick learners. So, they may solve 
this problem certainly. But that is kind of the thrust that I 
see happening.
    Mr. Burchett. Thank you, Chairlady.
    Of my 103 days in Congress, this has probably been one of 
the more informative meetings, and I appreciate it. I wish my 
father was alive to hear what you had to say about the Chinese. 
He fought them after the Second World War in some limited 
engagements in the United States Marine Corps. You have 
educated me. I want to thank you all very much, all three of 
you.
    Chairlady, I am sorry I went over.
    Ms. Spanberger. Thank you.
    The chair now recognizes Mr. Malinowski.
    Mr. Malinowski. Thank you, Madam Chair.
    Ms. Spanberger. I apologize. The chair now recognizes--no, 
Mr. Malinowski. Sorry.
    Mr. Malinowski. We are good?
    Ms. Spanberger. Yes, we are good.
    Mr. Malinowski. OK.
    Ms. Spanberger. I apologize.
    Mr. Malinowski. Thanks.
    Ms. Spanberger. Thank you.
    Mr. Malinowski. When I used to ask Russian dissidents, how 
can we help you, they would sometimes shoot back, well, at 
least stop hurting us by allowing Putin's cronies and oligarchs 
to hide their money in American real estate, shell companies, 
and banks. So, I am very glad that you raised that issue, 
Ambassador Fried.
    The good news is we have a bipartisan bill. It was 
introduced in the last Congress. It is about to be 
reintroduced. I think it may be supported by the 
administration; I am hopeful. It will basically say that the 
true owners of shell companies, of companies registered in the 
United States, their identities have to be disclosed to the 
Treasury Department. I just want to ask all three of you, would 
you support that kind of legislation? I see a thumbs-up. Three 
thumbs-up. Good. Well, you will have an opportunity to tell us 
more formally soon, I hope.
    Let me go bigger picture. I think in all of your 
testimoneys there is a common theme that this is not just a 
battle of armies; it is a battle of ideas. Putin has an idea 
that dictatorships and kleptocracies should be left alone. He 
seems threatened and offended by institutions like NATO and the 
EU that try to uphold standards in the world. He seems to be 
offended and threatened by the notion of the United States 
leading by example, being a shining city on a hill. So, he 
tries to undermine the institutions. He tries to undermine our 
reputation. Makes us seem like just about any other country.
    So, let me do a little bit of a lightning round with you 
guys, and maybe I will start with you, Ambassador Fried, but 
anybody can jump in. Do we validate or counter Putin's idea 
when we say that NATO needs to pay us to protect them and 
question whether we should even defending small NATO allies 
like Montenegro? Just quickly.
    Mr. Fried. We are right to push for NATO countries to step 
up in defense spending. We are wrong to speak in terms of NATO 
as a protection racket.
    Mr. Malinowski. How when we denigrate the EU and suggest 
that we are cheering on Brexit? Are we validating or countering 
Putin's idea?
    Mr. Fried. We should support the unity of the democracies 
because we need our friends to deal with our adversaries. The 
EU at worst can be a bit of a pain to work with, but that is a 
friend. They are a friend, and an important one.
    Mr. Malinowski. What about when we throw our support behind 
a Russian-backed Libyan warlord who is trying to overthrow a 
government that the U.N. and the U.S. has recognized? Are we 
validating or countering Putin's world view and strategy? 
Victoria, do you want to----
    Ms. Nuland. Congressman Malinowski, the Russians have been 
supporting Haftar's civil war inside Libya for at least 2 
years. Why we would want to exacerbate and accelerate that does 
not make any sense to me.
    Mr. Malinowski. Let's take this closer to home. Are we 
validating or countering his idea when we call the free press 
in our country the enemy of the people?
    Mr. Fried. American values and American interests are 
ultimately indivisible, and this has been the core of America's 
grand strategy for 100 years. So, we ought to get behind our 
own best traditions. It makes us stronger, not weaker.
    Mr. Malinowski. Does it help us in this battle of ideas or 
hurt us when an American President maintains his own personal 
business empire and takes payments from foreign governments?
    Mr. Fried. Transparency, probity, decency, and financial 
disclosure are all good things, the mark, as used to be said, 
of a healthy republic.
    Mr. Malinowski. And what about when we accuse our 
intelligence community of being a deep state that is trying to 
engage in a coup against our elected leadership? Is that----
    Mr. Fried. Talk of coups, treason, enemies is the language 
that I had not heard in common discourse in the West since I 
was reading about it in history books, and I do not like to see 
it now.
    Ms. Nuland. Just to repeat a line from my opening 
statement, we enable Putin's quest when our own leaders ``call 
into question the basic rights enshrined in our liberal 
Constitution: an independent judiciary, a free press, 
protection of minority rights, and the oversight powers of this 
Congress.'' You named several others, in addition.
    Mr. Malinowski. And just a final question----
    General Keane. Mr. Congressman, can I say something here? 
And I really appreciate your being here from the very outset.
    I understand what you are saying, and I deal with leaders 
around the world on the very issue you are talking about. And 
that is the President's comments, and he makes them on a 
regular basis, almost daily. And what I tell those leaders, 
one, you should try to understand the comments. I am not 
telling you do not pay attention to it. But what you have to 
pay attention to is U.S. policy. And U.S. policy is supporting 
NATO 100 percent.
    Now are there denigrating comments about countries in NATO? 
Yes. And the President's speech when he went to Poland in the 
first year of his office, and stood up there and talked about 
the values in NATO and how it has preserved peace and stability 
in the world, how it is the bastion of all the advanced 
democracies in the world, and we share all those values 
together. Yes, we have to look at policy, where we do have a 
President that talks and expresses his own views at times, what 
on the surface appears to undermine some of those policies. I 
am not disputing that. I will acknowledge that. But I come back 
to policies, and that is what our adversaries are primarily 
looking at, our policies.
    Mr. Malinowski. But Article 5 does depend on our 
adversaries having absolute confidence that the President of 
the United States believes in NATO and in our commitment to 
defend every single ally, large or small, does it not? They 
have to believe that he believes it. Isn't that important?
    General Keane. Yes, and in my view, I do not think there is 
an issue there. The United States will respond to an Article 5 
incursion.
    Mr. Malinowski. OK. Thank you. I yield back. Well, unless 
you want to----
    Mr. Fried. I agree with General Keane that the policies of 
this administration are like what Mark Twain said of Wagner's 
music, ``Better than it sounds.'' But there is no substitute 
for Presidential leadership. And I have said the same thing to 
Europeans that General Keane has been saying all over the 
world. Look what they do. They have not done anything--the 
administration has not acted on the more problematic 
Presidential statements. And I say it and I believe it. But I 
wish I did not have to make that defense.
    Mr. Malinowski. Thank you. I yield back.
    Ms. Spanberger. Thank you.
    The chair now recognizes Chrissy Houlahan from 
Pennsylvania, and apologies to my colleague for skipping you in 
the last section.
    Ms. Houlahan. Not a problem at all.
    And thank you very much, Ambassadors and General, for 
coming today.
    My first question, sir, is for you, General. It has to do 
with the Russian military development and the recent 
revelation/realization that, in 2018, Russian defense spending 
actually went down and for the first time Russia became one of 
the less than five highest people spending on DoD expenditures.
    And my question has to do with whether or not, in doing 
this, you think that Russia's--is Russia actually still a great 
power? Or, with the assessment now that there are great powers 
that are China and Russia, as they are declining in their 
military expenditures, do you feel as though that is a 
reflection in their power and might, or is the fact that they 
are moving their expenditures into other areas, non-military 
areas, a reflection that they still continue to be a threat?
    General Keane. Well, it is a reflection of the economic 
challenges that Russia is facing in their country. As you know, 
they have significant inflation problems, unemployment 
problems, and the list goes on.
    But I spent over a year in a bipartisan congressional 
committee looking at principally where are we with Russia and 
China in terms of a national defense strategy. We are 
challenged by the fact that, if we got involved in a 
confrontation in Europe, the United States in an ocean away and 
we have to move to that conflict. So, that is a challenge in 
and of itself.
    But I can flat tell you that Russia and China have both 
developed asymmetric capabilities. They have not tried to build 
a force like ours, although China is building a navy like ours. 
But they have built asymmetric capabilities that have the 
capacity to take away something that we have always had 
dominance in, and that is the use of air power, not just from 
airplanes, but cruise missiles from ships.
    The Russians have that capability at Kaliningrad right now, 
if we got involved in a conflict over the Baltics or in Poland, 
et cetera. So, yes, and Russia is a significant nuclear power. 
They have improved all of their strategic weapons, and we are 
just now getting around to putting some money in the budget to 
do that. And they have developing tactical nuclear weapons, as 
we know, in violation of the INF 1987 Treaty. So, yes, Russia 
has significant military capability to this day that can impose 
cost on the United States and our allies in a conventional 
conflict. Likely, that is not what they want to do, because 
hybrid warfare, operating below the level of that conflict, has 
proven to be geopolitically successful for them.
    Ms. Houlahan. And, sir, where are they failing. If they are 
succeeding in those areas that you just outlined, where is 
Russia failing?
    General Keane. Well, Russia has a conscript military, and 
they only really professionalized about 30 to 40 percent of it. 
And the conscripts stay for 1 year. And therefore, their morale 
is not what it should be. Their leadership is not what it 
should be in two-thirds of that military. So, I am not about 
hyping the threat. I am about trying to be realistic about what 
it is and what is likely. But there is no doubt, when you put a 
microscope on it, that Russia does have a capability to impose 
cost on us in a conventional war. Over time, we win that war, 
but, initially, it is significant.
    Ms. Houlahan. And that is my final question, which is, 
given the expenditures that we are making in terms of dollars, 
and given their capabilities and their weaknesses, do you feel 
as though we are collectively gaining ground on Russia or 
losing ground?
    General Keane. Our problem is we have had--Russia and China 
have caught us technology-wise, where we had a significant 
technological advantage for years. So, they have got precision-
guided munitions, stealth technology, electronic warfare. The 
list goes on and on and on where we had dominance over them. We 
do not have that kind of dominance now.
    And what we are trying to do with the Trump defense buildup 
is get the kind of dominance and parity that we are used to 
having, for one reason only. That capability, just like the 
capability we had during the cold war, prevents war, and that 
is what we want to do. We want to make certain that the erosion 
that we have experienced--why? Seventeen years of 9/11 wars, 
budget reduction and sequestration, particularly the latter, 
kneecapped us rather significantly. And this is close to two 
decades now of impact on military capability.
    The Trump defense buildup I think is more critical than 
actually the Reagan defense buildup, given the adversaries that 
we are facing and what their capabilities are. We cannot do it 
just for one or 2 years, Madam. We have got to do it for about 
five or 6 years to get back to where we have a credible 
deterrence.
    Ms. Houlahan. I appreciate it. I know that my time is up. I 
guess the bigger part of my question is, why, with $700-plus 
billion every year, or increasingly every year, we are still 
behind or not spending our money appropriately, so that we can 
counter those asymmetrical threats?
    General Keane. Well, you answered the question. Some of 
that money has not been spent appropriately, and I hope, as we 
are going forward, that we are really focused on what 
capabilities--I will just give you one example. If a military 
service is taking a legacy system and they are going to want to 
improve that legacy system that is going to be with us for the 
next 20 or 30 years, wrong decision. Why is that? Because we 
have artificial intelligence coming. We have quantum sensors 
coming. We have directed-energy coming that our opponents are 
all going to have. We have got to get up on that next 
technological edge, is where we have to be, and not spend money 
on systems that fought a war in the past and is not going to 
fight a war in the future.
    Ms. Houlahan. Thank you. I appreciate it.
    I am sorry for going over my time. I yield back.
    Ms. Spanberger. Thank you.
    The chair now recognizes Mr. Trone from Maryland.
    Mr. Trone. Good afternoon. We are almost finished.
    First, I want to thank you guys for your excellent 
responses to Mr. Malinowski's questions. I thought that was 
very helpful, and I really appreciate your candor. Thank you.
    Russia appears to be fomenting conflict along its border 
region to the west in order to block any chance of accesion to 
NATO. I am thinking specifically about Georgia, Moldova. 
Regardless of whether NATO should seek to expand in those 
countries, do you believe the NATO alliance should tolerate 
such behavior from Russia? And if not, what can NATO do to 
counteract it? Who wants to take a stab?
    Ms. Nuland. I think we have, across multiple 
administrations and with the help of the Congress, worked hard 
to strengthen those leaders in Georgia, Moldova, and Ukraine--
and it has not been monolithic in any of those countries--who 
seek more democratic, open, tolerant societies. We have also 
worked hard to push back against Russian militarization of 
parts of those countries.
    I think the question now is whether, even absent the parts 
of those countries that are occupied, if you will, or under 
foreign influence, is the rest of the country, whether it is 
Georgia, whether it is Moldova, whether it is Ukraine. Are they 
meeting the highest standards that we demand of NATO members? 
And I think our goal now should be to work with each of them to 
make clear that it is not about the pieces of territory that 
they have lost. It is about whether they are clean enough, 
strong enough, democratic enough, to be in our family. And 
frankly, we have also got NATO members where we have got a 
problem there.
    Mr. Trone. Agreed. We have Russia invest significant 
resources, expanding its influence in Central Europe, in the 
Balkans. President Putin has a like-minded ally now in NATO, in 
the EU, in Viktor Orban in Hungary. He is testing NATO unity in 
Turkey, and continues to make inroads in Serbia, to your point. 
Are you concerned that President Putin is establishing an 
alliance of illiberal autocrats in Europe? And to what extent 
does this rollback of democracy in some places undermine the 
Transatlantic Alliance?
    Mr. Fried. I think President Putin will seek out autocrats 
on principle, but his interference in European elections goes 
far beyond. I mean, Russians were involved in Spain's Catalonia 
referendum. They were involved, as it turns out, in Brexit. 
They will work everywhere they can, looking for opportunities 
to divide. I do think that they have an inclination toward 
hard-right nationalism, but they will go with an extremist, 
right or left.
    I think that Putin is able to do this--that is, he is able 
to try to assemble an international alliance of autocrats and 
nationalists--partly because the United States has stepped back 
from its leadership of the free world. And I do not mean just 
this administration, though I mean that, too. But, even in the 
last administration, we did not seem to be stepping up to our 
traditional role. It is tough. The United States gets hit when 
we lead, but when we do not lead, things are worse.
    And I think that the fallout from the wars in Iraq and 
Afghanistan, and American war weariness and economic problems 
at home, have tended to weaken the national consensus for 
American leadership abroad. I think it will take a lot of 
effort to maintain that. I think it is important. I think both 
American political parties have strong traditions of supporting 
international leaders, but isolationism, or kind of inward-
looking unilateralism and nationalism, also have a tradition in 
American politics. I wish it did not, but it does. And I think 
that ultimately is the answer to Putinism. We need to step up 
and remember our best traditions and who we are.
    Mr. Trone. Well said. What about the yellow vests? Is he 
part of that mess in France?
    Mr. Fried. I think that the Russians go for anybody willing 
to play their game. I think what they do in our country, which 
is take socially divisive issues and play both sides to 
exacerbate it, they will play in every European country where 
they can. I think the players change, that is, their tools 
change, but their tactics are the same.
    Mr. Trone. That sounds like a yes.
    I yield back. Thank you.
    Ms. Nuland. I would just say it bears investigating where 
their funding is coming from.
    Mr. Trone. Yes.
    Ms. Houlahan [presiding]. Thank you.
    The chair recognizes Congressman Andy Levin from Michigan.
    Mr. Levin. Thank you, Madam Chairwoman.
    Thank you all for coming in today.
    I know there has been some focus on Russia's activities in 
Ukraine, and I want to go back there a little bit and explore 
in more detail. A Brookings fellow, Alina Polyakova, wrote 
that, ``While Russian interference in Western elections came as 
a surprise to many, Russia has a long track record of 
intervening in Ukraine's elections since 2004. Ukraine's 
experience is, thus, a bellwether for assessing the Russian 
tactics that may be deployed against the West.''
    Ms. Nuland, can you share a bit more about the kinds of 
tactics that we have seen from Russia with respect to Ukrainian 
elections and what, if any, Russian interference did we see 
during or in the leadup to the recent Presidential elections?
    Ms. Nuland. The traditional Russian playbook in Ukraine had 
been less about influence campaigns on Ukrainian voters and 
more about support along with the oligarchs who are in their 
orbit of individual candidates who they thought would be more 
favorable to Russia's interests, its economic interest and its 
military interest. So, to try to squeeze out democrats and, 
when they come into office, to damage them, to hurt them with 
the electorate, and in the case of Yushchenko actually throw 
acid on his face, and there were some vicious things that went 
on.
    The interesting thing about these elections is that the 
mandate, the margin by which President-Elect Zelensky won was 
so massive that any manipulation that may or may not have been 
by anybody got swamped by the people's will. I think the 
question now, Zelensky said a lot of the right things about 
anti-corruption and about breaking the oligarchic system in 
Ukraine, but he, himself, has been in business with senior 
oligarchic figures. So, he has got to now prove it, and we 
should support him if he does, but we should tie our assistance 
to a cleaner, more democratic, more economically open Ukraine.
    Mr. Levin. What do you and others think about the role of 
independent media in Ukraine and whether the U.S. could play a 
helpful role there in supporting the growth of an independent 
media, as part of that broadening you are talking about?
    Ms. Nuland. We have done a considerable amount to offer 
training. I think it is very important that foreign media not 
be controlled by us, but be indigenous. The problem has been 
that there is so much oligarchic money, not just in Ukraine, 
but throughout Central Europe as well, in the media space, you 
know, the owning of television stations, et cetera; that it is 
very hard for independent journalists to survive and thrive. 
So, support for independent journalism, training, solidarity 
with them, protection of them, is very important.
    General Keane. My reaction in watching Russia, certainly 
meddling in elections is clearly part of their foreplay, so to 
speak. But, when it comes to Ukraine, it was not too long ago 
when their stooge was running the country. And the reason why 
he is no longer running the country, obviously, is the impasse 
of Ukraine looking for the West, looking for economic ties with 
Europe, in particular, and eventually in a political-military 
alliance with NATO.
    So, what I see Putin influencing more in a country is 
pushing back on the domestic reforms that are necessary to gain 
economic viability and political stability as a result of that, 
because that is clearly not in his interest. So, oligarchs are 
a part of that. Flushing money in there is a part of all of 
that and the obvious corruption.
    Even the Kerch Strait issue, while the focus was certainly 
on naval-to-naval issue, what he was really interfering with is 
economically the ports that are to the north of the Kerch 
Strait----
    Mr. Levin. Right.
    General Keane [continuing]. And the transit of commodities 
out of those ports is what----
    Mr. Levin. All right. Let me try to shoehorn one more 
question in, really about the application of the tactics to the 
U.S. Last week, The New York Times reported that the White 
House Chief of Staff, Mick Mulvaney, instructed former Homeland 
Security Secretary Kirstjen Nielsen not to talk about Russian 
election interference around the President because, quote, 
``Mr. Trump still equated any public discussion of malign 
Russian election activity with questions about the legitimacy 
of his victory.'' Consequently, according the Times, the issue 
did not gain the urgency or widespread attention that a 
President can command, and it meant that many Americans remain 
unaware of the latest Russian versions of interference.
    Do any of you want to comment about whether it is fair to 
say that, until the President acknowledges the facts about 
Russia's interference in our elections, and mobilizes the 
defenses we will need to counter that interference, we will 
remain vulnerable to those attacks?
    Mr. Fried. I think one of the themes from this panel has 
been that Presidential leadership is critical. And as someone 
who, like Ambassador Nuland, did a lot of crafting talking 
points for Secretaries, and even Presidents, Vice Presidents, 
it should not be that hard to speak about the policy challenge 
of Russian election interference and disinformation without 
getting into the more difficult and partisan issues of the 
Mueller report. It is not that hard, or it should not be that 
hard.
    Presidential leadership is crucial. Acknowledging the facts 
of Russian attempted election interference can be separated 
from the partisan question, and even the political question, of 
the actual 2016 campaign. You could put it aside, draw a thick 
line, and say, OK, this is what we have to do to prevent it.
    And there is a viable set of toolkits. I mean, there is a 
consensus emerging among policy experts about how to deal with 
disinformation. Cyber experts know what they are doing. The 
level of knowledge is well ahead of the political ability to 
sustain it into Presidential-level policy, I think.
    Mr. Levin. All right. Well, I really appreciate the 
chairwoman and now the chairman's tolerance because I have gone 
over my time.
    But I really appreciate your answer. I mean, it really is a 
question of the integrity of our democracy. So, I agree it goes 
above all politics and above all partisanship.
    Thanks, and I yield back.
    Chairman Engel [presiding]. Thank you.
    Mr. Allred.
    Mr. Allred. Thank you, Mr. Chairman.
    And thank you to the Ambassadors and general for being here 
today. I think I am likely your last questioner. So, 
congratulations.
    Before seeking this office, I was a voting rights attorney. 
And one of the things that we were always concerned with was, 
of course, methods of state voter suppression, but also of 
conditions that might cause people not to vote, lack of 
confidence in our system, belief that their vote does not 
matter, and, of course, misinformation.
    And I know we have had a lot of discussion about Russian 
interference in the 2016 election today. Ambassador Fried, I 
wanted to ask you about what we can do in our civil society, 
our media, our social media, our people, to prepare ourselves 
and to perhaps innoculate ourselves for 2020. Because I visited 
the NSA. I think there has been some pretty accurate public 
reporting about what Russia's efforts were in the 2018 election 
and how they were interrupted. And I think we can, obviously, 
anticipate more in 2020. What do you think we can do in our 
civil society to prepare ourselves for this?
    Mr. Fried. Let me focus on one aspect of it. I expect that 
Russians, but maybe others, will use social media to disinform 
and misinform potential voters, stuff like polling places are 
not open or changing the address of polling places, or you have 
to bring this or that document with you, and if you do not, you 
will be arrested. There will be all kinds of garbage out there.
    The way to fight that, or one way to fight that, is to get 
in place in advance civil society groups, activists who can 
expose this misinformation, and then, link them up with 
reliable and trusted local community leaders, and have kind of 
a war room setup to respond, to expose misinformation and 
disinformation in real time, and then, get the word out to 
people what to ignore.
    Now it is hard. The bad guys are always going to be faster, 
but we should not allow that kind of disinformation to go 
unchallenged. And the time to set that stuff up is now, and 
raise people's awareness. It can be the Russians. It can be 
various extremists. They are going to be in that space. And the 
Russians love voter suppression because they want to exacerbate 
our existing social divisions.
    So, this is, whatever the source, there are tools available 
to fight it, and you do not have to go through--it does not 
require a Federal Government program. Local activists can do 
it, but you need tech-savvy people who can expose it, and then, 
you need to link them with community leaders that have 
credibility.
    Mr. Allred. Thank you so much.
    And I want to point to something you wrote in your written 
testimony. You said, ``The United States was different from 
previous great powers, exceptional, if you will, because we 
understood that our Nation would do well when, and only when, 
other nations also did well. We were not interested in merely 
guarding a sphere of influence, like the great powers of the 
past. Instead, in a breathtaking display of confidence and 
vision, we understood that we could make the world a better 
place and do well for ourselves in the process.''
    I want to finish just by commending that and saying that I 
could not agree more. I think that our values, and as I think 
you have talked about with other questioners, leading with our 
values is important in terms of our response to Russia. And if 
you could, just finish by maybe summarizing some of your 
thoughts there.
    Mr. Fried. Well, thank you for recalling that. I believe 
that strongly. The key professional experience in my career was 
the overthrow of communism and the successful replacement of it 
by democratic governments. And that taught me something about 
what we used to call ``the American way''. So, I do have what 
sounds like a naive faith in the power of the best American 
ideals to overcome the darker sides of our tradition. And I 
still have that faith.
    Mr. Allred. Thank you, Mr. Ambassador.
    And thank you, Mr. Chairman, for holding this hearing. I 
have learned a lot, and I really appreciate all of your 
testimony today.
    Chairman Engel. Thank you, Mr. Allred.
    Well, in fact, it is the time of the now late afternoon 
when I can thank the three of you for truly excellent 
testimony. And you can see by the level of participation that 
my colleagues on both sides of the aisle think so, too. We had 
so many people come here and participate and ask questions.
    So, I just want to thank you. I know I have learned a lot. 
And I want to just thank you, the three of you, for all you do, 
and it was a pleasure listening to you. I think you made so 
many excellent points, that I think it gives a lot of us on 
this committee pause for thought. And thank you so much.
    The hearing is now adjourned.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       PRIORITY INTERCONNECTION PROJECTS FOR THE SEAS INITIATIVE

    To see a complete list please use the following link:

     https://docs.house.gov/meetings/FA/FA00/20190501/109399/
HHRG-116-FA00-20190501-SD001.pdf

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
